<html>
<title> - NATURAL GAS DRILLING: PUBLIC HEALTH AND ENVIRONMENTAL IMPACTS</title>
<body><pre>[Senate Hearing 112-901]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-901

 
     NATURAL GAS DRILLING: PUBLIC HEALTH AND ENVIRONMENTAL IMPACTS
=======================================================================



                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                AND THE

                              COMMITTEE ON

                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2011

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
88-762                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
MAX BAUCUS, Montana                  JEFF SESSIONS, Alabama, Ranking 
FRANK R. LAUTENBERG, New Jersey          Member
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                DAVID VITTER, Louisiana
KIRSTEN GILLIBRAND, New York         MIKE CRAPO, Idaho
BARBARA BOXER, California, (ex       LAMAR ALEXANDER, Tennessee
    officio)                         JAMES M. INHOFE, Oklahoma, (ex 
                                         officio)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 12, 2011
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Boxer, Hon. Barbara, U.S. Senator from the State of California...     7
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     9
Cornyn, Hon. John, U.S. Senator from the State of Texas..........    10
Casey, Hon. Robert P., Jr., U.S. Senator from the Commonwealth of 
  Pennsylvania...................................................    13
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    46
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    47
Boren, Hon. Dan, U.S. Representative from the State of Oklahoma..   206

                               WITNESSES

Perciasepe, Hon. Robert, Deputy Administrator, U.S. Environmental 
  Protection Agency..............................................    17
    Prepared statement...........................................    19
    Responses to additional questions from:
        Senator Boxer............................................    26
        Senator Cardin...........................................    29
        Senator Inhofe...........................................    32
        Senator Vitter...........................................    38
Summers, Robert, acting secretary of the Environment, Maryland 
  Department of the Environment..................................    53
    Prepared statement...........................................    56
Volz, Conrad Daniel, director, Center for Healthy Environments 
  and Communities................................................    60
    Prepared statement...........................................    62
Ubinger, Jack, senior vice president, Pennsylvania Environmental 
  Council........................................................    76
    Prepared statement...........................................    78
    Responses to additional questions from:
        Senator Boxer............................................    88
        Senator Cardin...........................................    90
    Report, Developing the Marcellus Shale, Findings and 
      Recommendations based on The Pennsylvania Marcellus Shale 
      Policy Conference, Pittsburgh, PA, July 2010 


    The Marcellus Shale Amendments, a Proposal for Reforming the 
      Pennsylvania Oil & Gas Act, Pennsylvania Environmental 
      Council, Chesapeake Bay Foundation, May 2011 


Cloud, Jeff, vice chairman, Oklahoma Corporation Commission......   155
    Prepared statement...........................................   157
    Responses to additional questions from:
        Senator Boxer............................................   162
        Senator Inhofe...........................................   163
        Senator Cardin...........................................   165
Neslin, David, director, Colorado Oil and Gas Conservation 
  Commission.....................................................   166
    Prepared statement...........................................   168
    Responses to additional questions from:
        Senator Boxer............................................   172
        Senator Cardin...........................................   174
        Senator Inhofe...........................................   175

                          ADDITIONAL MATERIAL

Statements:
    Bolin, David E., Ph.D., deputy director, State Oil and Gas 
      Board of Alabama...........................................   210
    Krancer, Michael L., acting-secretary, Commonwealth of 
      Pennsylvania, Department of Environmental Protection.......   235
    Klaber, Kathryn Z., president & executive director, Marcellus 
      Shale Coalition............................................   243
    Paque, Michel J., Ground Water Protection Council............   247
    Oklahoma Independent Petroleum Association...................   249
    Helm, Lynn D., director of the Department of Mineral 
      Resources Industrial Commission of the State of North 
      Dakota.....................................................   251
    Fitch, Harold R., chief, Office of Geological Survey, 
      Michigan Department of Environmental Quality...............   254
    Tew, Nick, Ph.D., P.G., Alabama State Geologist & Oil and Gas 
      Supervisor, president, Association of American State 
      Geologists.................................................   255
    Foerster, commissioner, Alaska Oil and Gas Conservation 
      Commission.................................................   255
    Neslin, David, director, Colorado Oil and Gas Conservation 
      Commission.................................................   256
    McDivitt, director, Indiana Department of Natural Resources..   256
    Collings, EEC, director, Kentucky Division of Oil and Gas....   257
    Welsh, James, commissioner of Conservation, Louisiana 
      Department of Natural Resources............................   257
    Fitch, Harold, director, Michigan: Office of Geological 
      Survey, Department of Environmental Quality................   257
    Wrotenbery, Lori, director, Oil and Gas Conservation 
      Division, Oklahoma Corporation Commission..................   258
    Schmierbach, Paul, manager, Tennessee Department of 
      Environmental Conservation.................................   258
    Carrillo, Victor G., chairman, Railroad Commission of Texas..   258
    Steece, Fred, Oil and Gas supervisor, Department of 
      Environment and Natural Resource...........................   259
    Marvel, Rick, engineering manager, Wyoming Oil and Gas 
      Conservation Commission....................................   260
    Doll, Tom, Oil and Gas Commission supervisor, Wyoming Oil and 
      Gas Conservation Commission................................   260
Letters:
    Doll, Thomas E., PE, State Oil and Gas Supervisor, Wyoming 
      Oil and Gas Conservation Commission, April 8, 2011.........   262
    Nally, Scott J., director, Ohio Environmental Protection 
      Agency, April 21, 2011.....................................   264
    West Virginia Department of Environmental Protection:
        McClung, Lisa, deputy cabinet secretary, April 20, 2011..   266
        Huffman, Randy C., cabinet secretary, April 15, 2011.....   268
    Baker, Gerry, associate executive director, Interstate Oil & 
      Gas Compact Commission, April 8, 2011......................   298
    Pennsylvania Department of Environmental Protection:
        Krancer, Michael L., acting secretary, April 6, 2011.....   363
        Daniels, Lisa, D., chief, Division of Operations 
          Monitoring and Training, March 11, 2011................   366
        Furlan, Ronald C., PE, manager, Division of Planning and 
          Permits, March 18, 2011................................   368
    Sydow, William H., director, Nebraska Oil and Gas 
      Conservation Commission, April 7, 2011.....................   374
Articles:
    Pittsburgh Tribune-Review, Drilling opponent to leave Pitt 
      Post, Sunday, April 20, 2011 and Pitt: Departing shale 
      drilling opponent free to speak his mind, Tuesday, April 
      12, 2011, by Luis Fabregas 


    Canada Free Press, Pitt prof caught off base in new frack 
      attack, Monday, March 28, 2011, by Steve Milloy............   380
Studies:
    University of Arkansas, Sam M. Walton College of Business, 
      Projecting the Economic Impact of the Fayetteville Shale 
      Play for 2008-2012 Executive Summary, March 2008...........   383
    Penn State, An Emerging Giant: Prospects and Economic Impacts 
      of Developing the Marcellus Shale Natural Gas Play, 
      Cosidine, Timothy, Ph.D., M.B.A., Executive Summary, July 
      24, 2009...................................................   390
    State of Colorado Oil & Gas Conservation Commission, 
      Department of Natural Resources............................   421
    Alaska Oil and Gas Conservation Commission...................   425
Resolution, 10.052, Interstate Oil & Gas Compact Commission, 
  Urging the Congressional Conference Committee on Bill H.R. 2996 
  and the Environmental Protection Agency to Remain Within the 
  Scope of the Directive to EPA..................................   427


     NATURAL GAS DRILLING: PUBLIC HEALTH AND ENVIRONMENTAL IMPACTS

                              ----------                              


                        TUESDAY, APRIL 12, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                           jointly with the

                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The committee and subcommittee met, pursuant to notice, at 
9:15 a.m. in room 406, Dirksen Senate Office Building, Hon. 
Benjamin L. Cardin, (chairman of the subcommittee) presiding.
    Present: Senators Cardin, Boxer, Inhofe, Sessions, 
Lautenberg, Whitehouse, Barrasso, Udall, Merkley and Boozman.

  STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Good morning everyone. Welcome to the joint 
hearing between the full Environment and Public Works Committee 
and the Subcommittee on Water and Wildlife. I want to thank 
Senator Boxer and Senator Inhofe for arranging for this 
hearing. I want to thank my colleagues that are here that are 
prepared to testify.
    Let me start by saying the United States has as much 
natural gas as Saudi Arabia has oil. According to Penn State, 
the Marcellus Shale which runs from Central New York State to 
West Virginia may be the second largest natural gas field in 
the world. We have enormous reserves that can help America meet 
its energy needs and do so in a way that produces far less 
pollution than coal, help the United States on its path to 
energy independence, and improve our national security.
    High volume horizontal hydraulic fracturing, or fracking, 
is now being used to extract natural gas from shale formations 
in thousands of new wells. In Pennsylvania, more than 2,700 
Marcellus wells were drilled from 2006 to March 10 of this 
year. A study last year estimated that Marcellus drilling would 
create or support more than 100,000 jobs in 2011 plus billions 
of dollars in economic value for the State.
    The natural gas industry is booming, but it may be in 
jeopardy. New York has imposed a moratorium on fracking 
operations. New Jersey is considering a ban on the practice. 
The city of Pittsburgh has enacted a ban on fracking operations 
within the city limits. Tiny Mountain Lake Park, MD adopted an 
ordinance making the drilling of natural gas illegal within the 
town limits.
    So why is this happening? The answer is simple. The 
industry has failed to meet minimal acceptable performance 
levels for protecting human health and the environment. That is 
both an industry failure and a failure of the regulatory 
process.
    I am a strong supporter of domestic natural gas production, 
but my support only comes when human health and the environment 
are protected. The record is replete with cases of 
contamination from improper cement job, cracked drilling 
casing, drill pad spills and disturbances releasing natural gas 
in higher geological formations.
    In June 2010, the Pennsylvania Land Trust Association 
identified a total of 1,614 violations occurred by 45 
Pennsylvania Marcellus Shale drillers dating to January 2008, 
including 91 violations of Pennsylvania's clean stream laws, 
162 cases of improper construction of wastewater impoundments, 
50 cases of improper well casing construction, and four cases 
of inadequate blowout prevention. Last June, a well blowout in 
Clearfield County shot 35,000 gallons of gas and water 75 feet 
in the air over a 16-hour period.
    Municipal wastewater treatment plants are not equipped to 
handle the contaminants that come out of the fracking 
operations. Five million gallons of water, combined with 
thousands of gallons of special chemicals, can be used in a 
single fracking operation. Much of this is returned to the 
surface. Then it is either injected into underground wells or 
it is used by wastewater treatment facility plants, and the 
wastewater treatment plants cannot handle that type of 
pollutant.
    The question is: What is EPA doing about this? We 
understand that fracking is exempt from certain parts of the 
Clean Water Act, but it is certainly subject to the provisions 
that deal with wastewater treatment. Is EPA acting on these 
areas? That is one of the areas I hope that this hearing will 
deal with.
    The challenge is that State regulators have not been able 
to handle the issue. We are exempt from several of the Federal 
laws. However, it is subject to other provisions within the 
Clean Water Act and whether we have an adequate regulatory 
system that protects the public so that we can get the natural 
gas that is critically important to our country.
    It is my hope that this hearing will help answer these 
questions. I thank the witnesses that are here today. I thank 
our two colleagues who are participating in this hearing. We 
need to get this right. We need to figure out how we can get 
the natural gas that is plentiful in the United States in an 
environmentally safe way.
    We have allowed for State regulation, but in some cases 
State regulation has been inadequate. We do have Federal laws, 
some apply, some are exempt, and the question is whether we are 
in fact adhering to the Federal environmental rules that are 
currently in existence.
    What do we do with the wastewater? How do we treat it? How 
do we deal with the danger to our environment? I hope this 
hearing will help us in that pursuit.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    The United States has as much natural gas as Saudi Arabia has oil. 
According to Penn State, the Marcellus Shale, which runs from central 
New York State to West Virginia, may be the second largest natural gas 
field in the world.
    We have enormous reserves that can help America meet its energy 
needs and do so in a way that produces far less pollution than coal, 
helps the United States on its path to energy independence, and 
improves national security.
    High volume, horizontal hydraulic fracturing, or ``fracking,'' is 
now being used to extract natural gas from shale formations in 
thousands of new wells. In Pennsylvania more than 2,700 Marcellus wells 
were drilled from 2006 to March 10th of this year.
    A study last year estimated that Marcellus drilling would create or 
support more than 100,000 jobs in 2011, plus billions of dollars in 
economic value for the state.
    The natural gas industry is booming, but that may soon end. Against 
the backdrop of natural gas's promise,
    <bullet>  New York has imposed a moratorium on fracking operations.
    <bullet>  New Jersey is considering a ban on the practice.
    <bullet>  The city of Pittsburgh has enacted a ban on fracking 
operations within the city limits.
    <bullet>  Tiny Mountain Lake Park, Maryland adopted an ordinance 
making the drilling of natural gas illegal within the town limits.
    What's going on? In the face of its extraordinary promise, why is 
natural gas faltering?
    The answer is simple. The industry has failed to meet minimally 
acceptable performance levels for protecting human health and the 
environment. That is both an industry failure and a failure of the 
regulatory agencies.
    I am a strong supporter of domestic natural gas production. But my 
support only comes when human health and the environment are protected.
            potential human health and environmental impacts
    The natural gas industry argues that there has never been a 
documented case of drinking water contamination from fracking.
    Viewed in isolation, fracking occurs far below drinking water 
aquifers. But fracking doesn't mysteriously just happen. It involves 
drilling, wells, water, compressors, and all the associated equipment 
that goes into a modern well-drilling operation.
    The record is replete with cases of contamination from improper 
cement jobs, cracked drill casings, drill pad spills, and seismic 
disturbances releasing natural gas in higher geological formations. For 
example, Pennsylvania DEP brought an enforcement action against Cabot 
Oil for poor cementing after the drinking water wells of 19 families in 
Dimock, PA were polluted.
    In June 2010, the Pennsylvania Land Trust Association identified a 
total of 1614 violations accrued by 45 Pennsylvania Marcellus Shale 
drillers, dating to January 2008, including:
    <bullet>  91 violations of Pennsylvania's Clean Streams Law
    <bullet>  162 cases of Improper Construction of Waste Water 
Impoundments
    <bullet>  50 cases of Improper Well-Casing Construction, and
    <bullet>  4 cases of inadequate Blowout Prevention. Last June a 
well blowout in Clearfield County shot 35,000 gallons of gas and water 
75 ft. into the air over a 16 hour period.
    Pro Publica, the investigative news site, has found over 1,000 
reports of water contamination near drilling sites.
    Up to 5 million gallons of water combined with thousands of gallons 
of special chemicals can be used in a single fracking operation, much 
of this returning to the surface.
    This flowback fluid contains not only the chemicals used in the 
fracking process, but can also include salts, metals, and naturally 
occurring radioactive substances.
    Municipal wastewater treatment plants are not equipped to handle 
these contaminants. In Pennsylvania, more than a dozen publically owned 
treatment works facilities accepting natural gas wastewater have failed 
to treat it in accordance with permit requirements. Radioactive 
isotopes, heavy salts, and other chemicals were discharged into surface 
waters--all in apparent violation of the Clean Water Act.
    Even specialized facilities can have problems.
    Studies of the effluent from a commercial facility in Pennsylvania 
that collects water only from gas operations show half a dozen 
pollutants in excess of their approved limits as determined by an 
agency at the Centers for Disease Control.
    The contaminants include:
    <bullet>  Chloride, which has been found at levels that are 
hundreds of times higher than accepted health levels.
    <bullet>  Benzene, a known carcinogen, has been detected at levels 
thousands of times above health limits.
    <bullet>  Bromide reacts with other chemicals to form potentially 
carcinogenic compounds. It is present at levels tens of thousands of 
times higher than the levels of concern.
    Under the Safe Drinking Water Act, the EPA would typically be 
allowed to regulate all underground injections of fluids, including the 
chemicals used in fracking, cement jobs, casings, and disposal of 
flowback water. However, a loophole exempts fracking from regulation, 
except where diesel fuel is used.
    Even with this huge loophole, Federal violations have occurred. 
Since 2005, companies have injected over 32 million gallons of diesel 
fuel or fracking fluids containing diesel fuel in wells in 19 states. 
None of these operations obtained a permit under the Safe Drinking 
Water Act, meaning that all are in violation. To date, EPA has failed 
to take any enforcement action.
    Similar restrictions on the Clean Water Act allow drilling 
companies to operate outside its scope.
    State regulators, facing their own massive budget cuts, have tried 
to fill the void. In the Marcellus Shale area, Pennsylvania's response 
has been characterized as playing continual regulatory catch-up, as 
regulations have routinely failed to address issues.
    As today's hearing will make clear, the exemptions from the Safe 
Drinking Water Act and Clean Water Act aren't working.
    We need to put the environmental cop back on the beat, take 
aggressive action against the bad actors in the industry and earn back 
the public's confidence.
    The promise of natural gas will be a promise unfulfilled if the 
human health and environmental impacts are not properly safe-guarded. 
It's long past time that they were.

    With that, let me turn to the Ranking Republican Member of 
the full committee, Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Thank you, Mr. Chairman.
    I am really glad we are having this hearing because you 
hear this stuff about what a lousy job the States are doing, 
when in fact they are doing a great job. I have to say that on 
March 17 of 1949, more than 60 years ago, the first hydraulic 
fracturing job was performed in a well 12 miles east of Duncan 
in my home State of Oklahoma.
    The practice has now been used on more than 1 million 
currently producing wells, 35,000 wells a year, without one 
confirmed case of groundwater contamination. But don't take my 
word for it. Let's hear what the experts, the State regulators, 
have said.
    Nick Tew, Alabama State geologist, said: ``There have been 
no documented cases of drinking water contamination that have 
resulted from hydraulic fracturing operations to stimulate oil 
and gas wells in the State of Alabama.''
    Cathy Foerster, Commissioner of the Alaskan Oil and Gas 
Conservation Commission: ``There have been no verified cases of 
harm to groundwater in the State of Alaska as a result of 
hydraulic fracturing.''
    Harold Fitch, director, Michigan Office of Geological 
Survey at the Department of Environmental Quality: ``There is 
no indication that hydraulic fracturing has ever caused damage 
to the groundwater or other resources in Michigan. In fact, the 
OGS has never received a complaint or allegation that hydraulic 
fracturing has impacted groundwater in any way.''
    Victor Carrillo, chairman of the Railroad Commission of 
Texas, that's the organization in Texas that has that 
jurisdiction, I might add: ``Though hydraulic fracturing has 
been used for over 60 years in Texas, our Railroad Commission 
records do not reflect a single documented surface or 
groundwater contamination case.''
    Same thing is true with Fred Steece from South Dakota and 
all of these others. So I have these other statements I will 
include in the record.
    [The referenced documents follow on page 255.]
    Senator Inhofe. Now, let me show you why this is the case. 
We have a chart. Pull the chart up here. It is very important. 
Let it spread out and hold that up high enough that people can 
see it, if you would. Very good.
    Now, the chart illustrates a cross-section of a typical 
well drilled in the Marcellus Shale in Southwest Pennsylvania. 
You see the blue line way up at the top, that little narrow 
blue line. That illustrates the groundwater aquifer. In between 
that groundwater aquifer and the Marcellus Shale are dozens of 
layers of solid rock, almost 2 miles of solid rock. Let me 
repeat that: 2 miles of solid rock between the aquifer and down 
here where they have the Marcellus Shale that is so valuable to 
the future of this country.
    Now, see the small box at the top? That is a picture of the 
Empire State Building. I am trying to get this in perspective 
so that people can see that this stuff they hear just flat 
isn't true. For groundwater contamination to occur, frack 
fluids would have to migrate through 7,000 feet of solid rock. 
Once again, that is about the same as the distance from the 
west front of the Capitol all the way to the Washington 
Monument. The fluid migration can't happen and it doesn't 
happen.
    Given these facts, what can possibly explain calls to 
regulate fracking from Washington, DC? It is simple. The Obama 
administration wants to regulate fossil fuels out of existence. 
Energy Secretary Steven Chu actually said, ``Somehow we have to 
figure out how to boost the price of gasoline to the levels in 
Europe.'' For my colleagues who might not know, the price there 
is about $8 a gallon.
    Or consider Alan Krueger of the Treasury Department in the 
Obama administration who said: ``The Administration believes 
that it is no longer sufficient to address our Nation's energy 
needs by finding more fossil fuel.''
    That is what this is all about. Mr. Krueger's belief is now 
a reality. Gas at the pump is approaching $4 and we think it is 
going to be going on up.
    Now, if you think these data points are bad, they will grow 
far worse under EPA's cap-and-trade agenda. As part of that 
agenda, the Agency is maneuvering to regulate hydraulic 
fracturing, a practice that has always been regulated by the 
States. Testimony today will confirm that States don't need the 
EPA. There is this mentality we have here in Washington, I 
would say to my friends, and I want to welcome Jeff Cloud from 
my State of Oklahoma, who is here to testify. It is the 
Corporation Commission, I would say to Senator Cornyn, in 
Oklahoma, not the Railroad Commission that regulates it in 
Oklahoma.
    These people have been doing a good job, but the mentality 
that we have here in Washington is that nothing is done right 
unless it is done in Washington.
    So the Nation's immense shale deposits are predominantly 
located in States that effectively and efficiently regulate oil 
and gas, in States such as Pennsylvania, Arkansas, Oklahoma, 
Texas, Louisiana, West Virginia, Ohio, and North Dakota. A 
virtual boom in natural gas development is transforming 
America's energy security due in no small measure to the 
absence of Federal regulation.
    For this reason, I would only say that I agree with 
something that was said by the Chairman this morning when he 
was talking about the tremendous reserves. Our recoverable 
reserves in gas, and we were talking about natural gas this 
morning, are greater than any country in the world. We could 
run this country for 90 years on natural gas without importing 
any from the Middle East.
    That is why this is important. For those people who say 
they want to cut down our dependence on the Middle East and at 
the same time kill natural gas production. Kill it? Yes, you 
start regulating. You can't get natural gas from these deposits 
without hydraulic fracturing. It has worked. It has been 
successful. We have to keep that for America.
    Thank you.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    On March 17, 1949, more than 60 years ago, the first hydraulic 
fracturing job was performed on a well 12 miles east of Duncan, in my 
home State of Oklahoma. The practice has now been used on more than 1 
million currently producing wells, 35,000 wells per year, without one 
confirmed case of groundwater contamination from these fracked 
formations. But don't take my word for it. Let's hear what the experts, 
the State regulators, have said:
    Nick Tew, Alabama State Geologist & Oil and Gas Supervisor._``There 
have been no documented cases of drinking water contamination that have 
resulted from hydraulic fracturing operations to stimulate oil and gas 
wells in the State of Alabama.''
    Cathy Foerster, Commissioner of Alaska Oil and Gas Conservation 
Commission._``There have been no verified cases of harm to groundwater 
in the State of Alaska as a result of hydraulic fracturing.''
    Harold Fitch Director, Michigan Office of Geological Survey of the 
Department of Environmental Quality._``There is no indication that 
hydraulic fracturing has ever caused damage to groundwater or other 
resources in Michigan. In fact, the OGS has never received a complaint 
or allegation that hydraulic fracturing has impacted groundwater in any 
way.''
    Victor Carrillo, Chairman Railroad Commission of Texas._``Though 
hydraulic fracturing has been used for over 60 years in Texas, our 
Railroad Commission records do not reflect a single documented surface 
or groundwater contamination case associated with hydraulic 
fracturing.''
    Fred Steece, Oil and Gas Supervisor of the South Dakota Department 
of Environment and Natural Resources._``In the 41 years that I have 
supervised oil and gas exploration, production and development in South 
Dakota, no documented case of water well or aquifer damage by the 
fracking of oil or gas wells, has been brought to my attention. Nor am 
I aware of any such cases before my time.''
    And I have statements from eight more oil and gas producing states 
that I would like to submit for the record. They all state that 
hydraulic fracturing does not contaminate groundwater.
    Now let me show you why this is the case. This chart illustrates a 
cross section of a typical well drilled in the Marcellus shale in 
southwest Pennsylvania. Do you see the small blue line at the top of 
the chart? That illustrates the groundwater aquifer. In between that 
groundwater aquifer and the Marcellus shale are dozens of layers of 
solid rock--more than a mile of it. Let me say that again: there is 
more than a mile that separates the groundwater aquifer and the well.
    See the small blue box at the top? That's a picture of the Empire 
State Building. For groundwater contamination to occur, frack fluids 
would have to migrate through 7,000 feet of that solid rock. Once 
again, that's about the same distance as from the West front of the 
Capitol all the way to the Washington Monument--of solid rock. That 
fluid migration can't happen and it doesn't happen.
    Given these facts, what can possibly explain calls to regulate 
fracking from Washington, DC.? It's simple: the Obama administration 
wants to regulate fossil fuels out of existence. And they haven't been 
shy about it. Energy Secretary Steven Chu actually said, ``Somehow we 
have to figure out how to boost the price of gasoline to the levels in 
Europe.'' For my colleagues who might not know, prices are $8 per 
gallon in Europe. Or consider Alan Krueger of the Treasury Department, 
who said, ``The Administration believes that it is no longer sufficient 
to address our Nation's energy needs by finding more fossil fuels. . . 
.''
    Mr. Krueger's belief is now reality. Gas at the pump is fast 
approaching $4.00 a gallon. Drilling in Federal offshore waters is 
nearly non-existent. As for Federal lands, the Western Energy Alliance 
recently reported that oil and gas leasing has dropped by 67 percent 
since 2005.
    If you think these data points are bad, they will grow far worse 
under EPA's cap-and-trade agenda. As part of that agenda, the agency is 
maneuvering to regulate hydraulic fracturing, a practice that has 
always been regulated by the states.
    But testimony today will confirm that the states don't need EPA. 
The nation's immense shale deposits are predominantly located in states 
that effectively and efficiently regulate oil and gas. In states such 
as Pennsylvania, Arkansas, Oklahoma, Texas, Louisiana, West Virginia, 
Ohio, and North Dakota, a virtual boom in natural gas development is 
transforming America's energy security--due in no small measure to the 
absence of Federal regulation.
    For this reason, let's keep the states in charge of hydraulic 
fracturing, for the benefit of consumers, jobs, economic growth and 
expansion, and our Nation's energy security.

    Senator Cardin. Chairman Boxer.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Thank you, Senator Cardin.
    Thank you for chairing this important hearing as Chairman 
of the Water and Wildlife Subcommittee.
    First, just on another note, I want to express, as Chairman 
of this committee, I don't speak for all the Members. I do 
speak for the Members on my side of the aisle. We are grateful 
that the budget agreement does not include EPA riders and a 
poll today showed that 70 percent of the people agree with 
that.
    Today, we are here to examine the public health and 
environmental impacts of natural gas drilling. Recent 
advancements in horizontal drilling and hydraulic fracturing 
have led to significant expansion in proving U.S. natural gas 
reserves, and we are glad to see that we can in fact extract 
natural gas because now it is actually economically, where a 
few years ago it was not.
    The discovery of new resources creates an opportunity for 
increased production of a cleaner, domestically produced fuel. 
One of the key reasons for the increase in natural gas reserves 
is the discovery of the Marcellus Shale in the Appalachian 
region of the United States, which underlays portions of 
Virginia, West Virginia, Ohio, Maryland, Pennsylvania and New 
York.
    With drilling in this part of the country like to increase 
exponentially in coming years, it is critical that we ensure 
that efforts to extract natural gas do not threaten the air we 
breathe and the water we drink.
    I want to thank Senator Casey for really taking this issue 
on in a very responsible way. I again want to thank Senator 
Cardin because his State has a lot at stake here as well.
    I am one who believes that this committee's oversight 
effort is important because there are questions that need to be 
answered and if we follow the science, it will lead us the 
right way. A recent series of investigative reports in the New 
York Times highlighted some of the potential risks, I say 
potential risks, of natural gas drilling and the inconsistent 
efforts to regulate this booming industry.
    For example, the Times reported that the hydraulic 
fracturing process wastewater is often contaminated with 
pollutants, including toxic metals, highly corrosive salts, 
carcinogens such as benzine, and radioactive elements. These 
are facts. This is not a statement pro or con. These are facts.
    A large amount of this wastewater is disposed in municipal 
sewage treatment plants that may or may not be equipped to 
remove the contaminants. These plants can discharge harmful 
levels of radiation and toxic substances into local waterways, 
and the solid waste produced may contain an array of toxins.
    Without the proper oversight, the disposal of drilling 
wastewater poses threats to aquatic life and human health, 
especially when public drinking water systems rely on waterways 
where waste is being discharged. Concerns have also been raised 
that chemicals contained in the fluids used in the hydraulic 
fracturing process can contaminate groundwater.
    However, Federal and State regulators and concerned 
citizens frankly haven't had all the information they need to 
determine whether drilling was causing groundwater 
contamination. Historically, some companies have limited access 
to information on the chemicals they use in their drilling 
fluids.
    The Federal Government does not require drilling operators 
to fully disclose the chemicals they are injecting into the 
ground. Some States such as Wyoming now require disclosure of 
chemicals used in the fracking process. So I agree that some 
States are taking responsible action here.
    The industry has also recently launched a voluntary 
disclosure effort with the Groundwater Protection Council. That 
is encouraging, too, but we have a long way to go before full 
disclosure is a consistent and industry-wide practice.
    I believe in disclosure. Let the facts come out and we will 
make a reasonable decision, I believe. So I have highlighted 
only a few of the health and environmental issues that have 
been associated with natural gas drilling. Additional issues 
include air pollution, impacts on water supply due to the 
millions of gallons of water that are needed at each natural 
gas well.
    So given the array of potential impacts and the need for 
more studies, the State of New York is taking a time out of 
hydraulic fracturing, choosing to fully study the issues first 
before allowing widespread drilling. So New York and other 
States are taking action here.
    The U.S. EPA has also been directed by Congress, directed 
by Congress, to study the impact of hydraulic fracturing on 
water supplies. I expect the Agency will use an independent, 
comprehensive and scientific process to provide Congress with 
unbiased information. There is much that we need to learn so 
that we can move forward in a way that ensures safe and 
responsible drilling that is protective of our air and water. I 
think those have to go together.
    This hearing is an important step in the EPW Committee's 
oversight on this issue and I certainly look forward to hearing 
from my colleagues and the other members of the panel.
    Thank you.
    Senator Cardin. Senator Barrasso.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    When it comes to American energy, we need it all. Oil and 
natural gas are a critical part of the mix. In my home State, 
we are very familiar with energy exploration. We have just 
about everything, from oil and gas to coal to wind, and these 
resources provide a great opportunity for our State and our 
Nation. It means jobs and economic security, as well as energy 
security.
    Wyoming right now ranks second in the country in natural 
gas production. The oil and gas industry supports nearly 20,000 
jobs in the State of Wyoming and we are talking about a State 
with a population of only about a half million people. The 
revenues generated from oil and gas exploration are invested 
right at home. It helps build schools, roads and water systems. 
It also helps send kids to college in our State through the 
Hathaway Scholarship Program.
    Senator Inhofe gave a very compelling litany of success 
stories from across the country. I want to share a letter from 
the Wyoming Oil and Gas Conservation Commission. The Commission 
regulates oil an gas activities, including hydraulic fracturing 
in Wyoming. Here are a couple of quotes: ``Wyoming has no 
documented cases of groundwater contamination caused by 
hydraulic fracturing. From 1999 to 2010, over 46,000 individual 
hydraulic fracturing well stimulation treatments were performed 
in Wyoming. Almost 100 percent of oil and gas wells drilled in 
Wyoming require hydraulic fracture stimulation to be 
commercial.''
    I request a copy of this letter be placed in the record.
    Senator Cardin. Without objection.
    Senator Barrasso. Thank you, Mr. Chairman.
    [The referenced document follows on page 262.]
    Senator Barrasso. It provides details about my home State's 
rules for hydraulic fracturing. In Wyoming, we have been 
producing oil and gas for a long time. The letter mentions over 
46,000 of these procedures from 1999 to 2010 alone, but our 
experience goes way back to the 1950's. Wyoming continues to be 
a leader ensuring that the appropriate safeguards are in place 
for drilling and for hydraulic fracturing. We take this issue 
very seriously and I appreciate Senator Boxer's comments about 
Wyoming doing it right.
    It is about both our environmental stewardship and about 
jobs. The State demonstrated this when it updated its rules 
just this last year. The changes include increased transparency 
requirements for hydraulic fracturing. Industry is required to 
disclose all the chemicals used in well stimulation before and 
after hydraulic fracturing.
    Most of America's oil and gas production is dependent on 
hydraulic fracturing. Without it, America's vast energy 
resources will remain locked away and we will become 
increasingly dependent on foreign energy, a threat to our 
energy security, our financial security, and our national 
security.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you.
    We will now turn to our colleagues as our first panel. We 
will start with Senator Cornyn.

 STATEMENT OF HON. JOHN CORNYN, U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Chairman Cardin, and thanks to 
Chairman Boxer, the Chairman of the full committee, and Senator 
Inhofe, the Ranking Member, and Senator Barrasso. It is good to 
be here with you today.
    As Senator Inhofe noted, fracking has been around a long 
time, about 60 years. What has changed the state of play, so to 
speak, has been the advent of horizontal drilling, which if you 
fly into Dallas-Fort Worth Airport, you will be met with scenes 
actually of active drilling going on there thanks to the 
directional drilling that is capable from a single platform of 
doing out a mile or more into some of the shale formations.
    I am glad to have the opportunity to share the perspective 
of my State on this practice, which I am proud to say we helped 
develop, and which is essential to the development of three 
shale plays in our State: the Barnett Shale around Fort Worth; 
the Haynesville Shale out in East Texas; and the Eagle Ford 
Shale.
    I want to focus on three points. Texas and the United 
States, as you already stated, has a bountiful supply of 
natural gas. This has implications for job creation and our 
economy and national security. States are effectively 
regulating hydraulic fracturing already. Federal regulation by 
the EPA would inevitably lead to duplicative regulation, 
bureaucratic delays and diminish the production of this 
important energy resource.
    In Texas, the oil and gas industry provides more than 1.7 
million jobs and accounts for nearly 25 percent of our State's 
economy. Over 11,000 wells have been completed in the Barnett 
Shale, which as I said, is in the Dallas-Fort Worth area, one 
of the Nation's most active and largest unconventional natural 
gas fields. The Barnett Shale contributes over 20 percent of 
the total Texas natural gas production.
    In South Texas, a very exciting development there with the 
Eagle Ford Shale. According to a recent study by the University 
of Texas at San Antonio, the long-term regional implications of 
the boom in South Texas are staggering. According to a study by 
the University, under modest assumptions, by 2020 the Eagle 
Ford Shale is expected to account for close to $11.6 billion in 
gross State product; $21.6 billion in total economic output 
impact; and support close to 67,000, roughly 68,000 full-time 
jobs.
    The Haynesville Shale in East Texas and Louisiana was not 
commercially viable until a few years ago, but is now thanks to 
advancing technology. I recently went to a drilling rig outside 
of Nacogdoches, TX that represents the latest improvements on 
drilling, using more energy-efficient engines, leading to 
shorter drilling times, and reducing the impact on surrounding 
areas.
    The proliferation of these domestic resources has 
contributed to Texas' ability, if not unique, nearly unique in 
this recession, to actually add jobs to our economy. Yet the 
job creators and workers on this particular rig were anxious 
about what they could expect from Washington in terms of 
additional and duplicative regulation.
    As you know, hydraulic fracturing has been used safely in 
tens of thousands of wells already. This practice has been 
studied extensively by the Environmental Protection Agency, 
Groundwater Protection Council, the Interstate Oil and Gas 
Compact Commission. In each case, hydraulic fracturing has been 
judged to be environmentally sound.
    At every step in the drilling process, energy producers are 
subject to State regulations already, as well as Federal 
requirements under the Occupational Health and Safety 
Administration, the Environmental Response, Compensation and 
Liability Act, and the Toxic Substances Control Act. So as you 
can see, the Federal Government is already actively involved.
    This week, the Groundwater Protection Council and the 
Interstate Oil and Gas Compact Commission unveiled a landmark 
web-based national registry for the disclosure of chemical 
additives used in the fracking process. As alluded to by 
Chairman Boxer, this is important information. Energy companies 
now have a single source to publicly disclose these fluids on a 
well by well basis. So State regulators are already aware of 
what chemicals are being used and hydraulic fracturing has not 
been the culprit in water contamination. This registry is an 
important tool for the education of the public.
    However, I must say that I'm joined here at the table by my 
good friend Senator Casey, who I know is proposing legislation 
called the FRAC Act that would go beyond public disclosure of 
chemical additives and give the EPA direct regulatory authority 
over hydraulic fracturing for the first time in our Nation's 
history.
    In my view, there is no need to destroy the current 
partnership between State and Federal regulators and put the 
EPA in the driver's seat. We have seen the EPA through 
aggressive regulatory efforts engage in a lot of activity 
which, frankly, is harmful to our economy and we have seen what 
happens when over-regulation and misinformation becomes the 
common narrative.
    Additional layers of red tape, lawsuits and restrictions 
can create a death by a thousand cuts that run independent 
producers out of business and take with them valuable jobs, as 
well as local, State and Federal tax revenue.
    Without hydraulic fracturing, access to potentially massive 
natural gas resources in America's shale regions would be 
substantially restricted.
    I thank very much the committee for having the hearing and 
thank you for having me come testify on a very, very important 
topic.
    Thank you.
    [The prepared statement of Senator Cornyn follows:]
  Statement of Hon. John Cornyn, U.S. Senator from the State of Texas
    Chairman, members of the Subcommittee, thank you for having me 
testify on the topic of hydraulic fracturing, which is a critical 
technology for increasing domestic natural gas production. I am glad to 
have the opportunity to share my state's perspective on this practice--
which, I am proud to say, we helped develop, and is essential to the 
development of the three shale plays in my home state: the Barnett, the 
Haynesville, and the Eagle Ford.
    I'd like to focus on a few key points. (1) Texas and the United 
States have a bountiful supply of natural gas with significant, 
positive implications for our economy, and our future energy security. 
(2) States are effectively regulating hydraulic fracturing. (3) Federal 
regulation by the Environmental Protection Agency (EPA) would 
inevitably lead to duplicative regulation, bureaucratic delays, and 
diminish the production of this important energy resource.
    Over the past decade, the combination of horizontal drilling and 
hydraulic fracturing has allowed access to large volumes of shale gas 
that were previously uneconomical to produce. Production of shale gas 
is expected to continue to increase, and constitute 45 percent of U.S. 
total natural gas supply in 2035, as projected in the 2011 Annual 
Energy Outlook by the Energy Information Administration.
    In Texas, the oil and gas industry provides more than 1.7 million 
jobs and accounts for nearly 25 percent of the state's economy. Over 
11,000 gas wells have been completed in the Barnett Shale, one of the 
nation's most active and largest unconventional natural gas fields. The 
Barnett Shale production currently contributes over 20 percent of total 
Texas natural gas production.
    In South Texas, the Eagle Ford Shale is also booming. According to 
a recent study by the University of Texas at San Antonio, the long-term 
regional implications of the boom are staggering. According to a study 
by the university: ``Under modest assumptions, by 2020 the Eagle Ford 
shale is expected to account for close to $11.6 billion in gross State 
product, $21.6 billion in total economic output impact and support 
close to 67,971 full-time jobs in the area.''
    The Haynesville Shale in East Texas and Louisiana was not 
commercially viable a few years ago, but is today thanks to technology. 
I recently visited a new drilling rig in Nacogdoches, Texas that 
represents the latest improvements in horizontal drilling--using more 
energy efficient engines, leading to shorter drilling times and 
reducing the impact on surrounding areas. The proliferation of these 
domestic resources has contributed to Texas' ability to add jobs in the 
current economy. Yet the job creators and workers on the rig were 
anxious about Washington's misguided policies.
    Hydraulic fracturing has been used safely in tens of thousands of 
wells across the state. The practice has been studied by the EPA, 
Groundwater Protection Council (GWPC) and the Interstate Oil and Gas 
Compact Commission (IOGCC). In each case, hydraulic fracturing was 
judged to be environmentally sound.
    At every step in the drilling process, energy producers are subject 
to State regulations as well as Federal requirements through the 
Occupational Safety and Health Administration, the Environmental 
Response, Compensation and Liability Act and the Toxic Substances 
Control Act.
    This week, the Groundwater Protection Council (GWPC) and the 
Interstate Oil and Gas Compact Commission (IOGCC), unveiled a landmark 
web-based national registry for the disclosure of the chemical 
additives used in the fracturing process. Energy companies now have a 
single source to publically disclose these fluids on a well-by-well 
basis. Though State regulators are already aware what chemicals are 
being used, and hydraulic fracturing has not been the culprit in water 
contamination, this registry is an important tool for the education of 
the public.
    However, legislation introduced by my friend, Senator Casey, known 
as the FRAC Act, would go beyond public disclosure of chemical 
additives and give the EPA direct regulatory authority over hydraulic 
fracturing for the first time in history. In my view, there is no need 
to destroy the current partnership between State and Federal regulators 
and put the EPA in the driver's seat. Unfortunately, we've seen what 
over-regulation and misinformation can do to our energy supplies.
    Additional layers of Federal red tape, lawsuits, and restrictions 
can create ``death by a thousand cuts'' that run independent producers 
out of business--and take with them valuable jobs, as well as local, 
State and Federal tax revenue. Without hydraulic fracturing, access to 
potentially massive natural gas resources in America's shale regions 
would be substantially restricted.
    Thank you.

    Senator Cardin. Thank you, Senator Cornyn.
    Senator Casey.

 STATEMENT OF HON. ROBERT P. CASEY, JR., U.S. SENATOR FROM THE 
                  COMMONWEALTH OF PENNSYLVANIA

    Senator Casey. Thank you, Mr. Chairman.
    I want to thank you for this hearing and Chairman Boxer, 
thank you as well for your testimony, and Ranking Member 
Inhofe, and now we are joined by Senator Lautenberg and Senator 
Barrasso.
    I do want to thank Senator Cornyn for his testimony. Let me 
first of all ask consent that I can place my whole statement in 
the Record.
    Senator Cardin. Without objection.
    Senator Casey. Thank you. I will be rather brief.
    I will start with history. In our State, we went through 
most of the 19th century and roughly about half of the 20th 
century not getting it right as it relates to the extraction of 
a natural resource, in this case coal, and balancing that with 
environmental regulations to make sure we were protecting 
public health and the environment.
    After 1950, we began to get it right in our State. Our 
State passed legislation like the Clean Streams Law in the 
early 1960's. As time went on, we started to do a much better 
job of regulating and making sure that we are getting that 
balance right.
    Today, we have to get it right. We have to be able to at 
the same time create jobs, and there has been a tremendous 
increase in jobs in Pennsylvania as a result of natural gas 
extraction. We also have, of course, the availability of a 
domestically produced source of energy, and that is good news. 
We need to pursue that.
    But we have to balance those with the kind of protections 
for public health and safety, as well as making sure that 
groundwater and drinking water is protected. I will speak about 
my legislation in a moment, but it reached a point in our State 
where after all that history and all of that learning and 
experience, that our State constitution was amended in the 
early 1970s. It is a very simple statement, but it is an 
important statement I think for our Commonwealth and I think 
for our country.
    Article I, Section 27 of the Pennsylvania constitution says 
the people shall have a right to clean air, pure water, and to 
the preservation of the natural, scenic, historic and aesthetic 
values of the environment. It goes on to say that that 
obligation means that we hold the environment as trustees for 
future generations.
    That is the directive from our State's constitution. It is 
not optional. It is not a maybe. It is not a hope you can do 
it. It is a directive, a constitutional directive. So I live in 
a State where that directive is very important to the 
Commonwealth and very important I think to people across the 
State.
    I think we can get this right. I don't think there is any 
question about it. But unfortunately, now even though this 
process has been around a while, the hydraulic fracturing 
process, there is still a lot of questions about whether or not 
it will have some of the environmental impacts that some are 
concerned about.
    I don't think it has to in any way slow things down. These 
questions are being raised in the State where over a four or 5-
year period of time we were averaging only 17 wells drilled a 
month. Now, we are well are well above I think the last number 
I saw was 120 wells a month are being drilled. So nothing has 
slowed down here. There is tremendous growth of this industry 
and tremendous opportunity with it. But as we are doing that, 
we have to make sure that we get it right.
    Let me just highlight. I have three bills, one that deals 
with emergencies as well sites; one that deals with job 
training. I will skip over those. They will be in my testimony.
    But just on the hydraulic fracturing, the so-called FRAC 
Act. Basically, what we are trying to do is amend the Safe 
Drinking Water Act, in particular the definition of 
``underground injection'' to include underground injection of 
fluids or propping agents used for hydraulic fracturing 
operations related to oil and gas production activities. It is 
very simple. We are trying to close the loophole that is in the 
law as it stands now.
    Second, it would require public disclosure of the chemical 
constituents, but not the proprietary information. Of course, 
if you analogize that to ingredients in something you would be 
making, baking a cake or something like that, we are not asking 
in this legislation that the proprietary information is made a 
part of public disclosure, but just the chemicals.
    The good news is here that we are getting a good bit of 
cooperation and help from the industry. Companies are 
disclosing. We will have some debates about the level and 
nature of disclosures, but I think the most difficult issue and 
the one that will cause the most conflict is the question of 
regulation.
    I am in favor of a national standard. Why should we have a 
set of tough environmental rules that protect drinking water 
and groundwater in one State, and have a State next door or 
across the country have a whole other set of rules.
    So I think we can get this right. I appreciate the 
opportunity to speak about this, and I am grateful to be joined 
by Senator Cornyn here at the table. I think we are both 
running out the door.
    [The prepared statement of Senator Casey follows:]
     Statement of Hon. Robert P. Casey, Jr., U.S. Senator from the 
                      Commonwealth of Pennsylvania
    Good morning. I want to thank the members of the committee and 
subcommittee for holding this morning's hearing As you know, natural 
gas drilling is an issue of immediate national relevance and vital 
importance to my home state. Thank you for the opportunity to testify 
today.
               i. natural gas, jobs, and energy security
    I support the responsible development of domestic natural gas 
resources and believe that it has the potential to produce significant 
environmental and economic benefits. Natural gas is playing an 
increasingly substantial role in our energy portfolio as we transition 
to a new energy future, and we are fortunate to have this domestic 
resource to help meet our growing demands. President Obama, in his 
speech introducing the ``Blueprint for a Secure Energy Future,'' noted 
that, ``In terms of new sources of energy, we have a few different 
options. The first is natural gas.'' While we must push harder for 
renewables such as wind and solar, all forms of power generation must 
remain under consideration. Natural gas offers enormous potential for 
our transportation and power needs.
    Technological advances are enabling amazingly high yields from 
previously inaccessible sources such as the Marcellus Shale. Hydraulic 
fracturing is an American-born technology prime for export, but 
importers may not embrace it until it is proven to be safe and 
sustainable. While hydraulic fracturing has been in use for over 50 
years, it is a markedly different technology from previous decades. It 
is now used in conjunction with horizontal drilling, in a much greater 
proportion of wells drilled, uses much larger total amounts of water 
and chemicals, and is rapidly expanding in geographic scope, most 
notably in the Marcellus Shale.
    It is mind-boggling how deep and how far we are now able to 
accurately drill into targeted areas and extract out tiny pockets of 
gas trapped in hard rock. The Commonwealth of Pennsylvania is 
experiencing a natural gas boom. An average of 120 wells per month were 
drilled in the Marcellus Shale in 2010, versus 17 a month in the 
preceding 4 years. Palpable optimism exists around the energy resource 
advantage that American natural gas reserves give us on a global scale. 
But it is incumbent on us to unequivocally ensure its practice as a 
safe, clean, and stable energy extraction method.
                        ii. history and examples
    In the last 150 years, prospectors and energy companies have 
drilled as many as 12 million holes across the United States in search 
of oil and gas. Edwin Drake drilled the Nation's first commercial oil 
well near Titusville, PA, in 1859. People have since drilled wells as 
they pleased all across the country. Hundreds of thousands of these 
wells were abandoned and forgotten, often leaving no records of their 
existence. Some States did not develop modern regulations until the 
second half of the 20th century. In the early days, the industry was 
dominated by ``wildcatters'' looking to get rich quick. Some say that 
what is happening now is on par with a gold rush from back then. I 
don't believe that the miners of yore, or present-day drillers, 
intentionally sought to do damage to the communities they left behind. 
But my State bares the burden of past mining and drilling practices 
that have left environmental impacts that we continue to face. Most of 
these were created in previous generations when Federal regulations 
that promoted responsible development did not exist. We have old 
natural gas wells that were not capped and leaked methane into homes. 
We have acid mine drainage that we spend millions of dollars every year 
to remediate. There are lessons in these examples from which we need to 
learn.
    For Pennsylvania and other States sitting on top of the Marcellus 
Shale formation, the rapid growth of gas drilling may increase the 
danger of oil, gas or brine-laden water pathways up to groundwater 
supplies or to the surface. The protection of underground water sources 
is especially important to Pennsylvania because we have the second 
highest number of private drinking water wells in the Nation; 3 million 
Pennsylvanians are dependent on private wells to provide safe drinking 
water to their homes. Every day I hear from Pennsylvanians who worry 
about their future access to safe drinking water and about explosions 
caused by gases migrating up from the deep. There continue to be 
incidents in Pennsylvania that could have, and should have, been 
averted. These cases raise the question of whether the necessary steps 
have been taken to protect families and communities against potential 
detrimental side effects of drilling.
    While these cases may be anomalies, they are highly visible 
calamities. As with other high-impact incidents, such as the Gulf oil 
tragedy, they can serve to stall, or even halt, development of domestic 
energy production. Their impacts stretch beyond tragic public health 
and environmental consequences to lost jobs and the economy.
    I commend my home State of Pennsylvania and the other States that 
have been taking steps to strengthen regulations and oversight of gas 
drilling with the goal of protecting the environment and public health. 
However, this is an industry without widely held and consistent best 
management practices, such as for controlling the quality of cementing 
and well casing. This has led to State-by-State variability in factors 
that are critical to ensuring the integrity of wells and protecting 
water resources.
      iii. frac act, marcellus on-the-job act, and the faster act
    There is no reason that we should be forced to choose among 
adequate environmental protection, energy security, and economic gain. 
In addition to helping to secure an Environmental Protection Agency 
study on fracking, I introduced a trio of related Bills:
    <bullet>  The Fracturing Responsibility and Awareness of Chemicals 
(FRAC) Act would increase disclosure and regulation of chemicals that 
could enter Pennsylvania's drinking water supply;
    <bullet>  The Faster Action Safety Team Emergency Response (FASTER) 
Act would improve safety for workers and emergency response procedures 
at drilling sites; and
    <bullet>  The Marcellus Shale On-the-Job Training Act would promote 
job training to help give Pennsylvania workers the skills needed to get 
jobs in the natural gas industry so that workers are not shipped in 
from out-of-state.
    If passed, the Fracturing Responsibility and Awareness of Chemicals 
(FRAC) Act, S. 587, would,
    <bullet>  amend the Safe Drinking Water Act definition of 
``underground injection'' to include the underground injection of 
fluids or propping agents used for hydraulic fracturing operations 
related to oil and gas production activities;
    <bullet>  require public disclosure of the chemical constituents 
(but not the proprietary chemical formulas) used in the fracturing 
process to State agencies prior to fracking, as well as after 
completing fracking, which will then be made public via Website; and
    <bullet>  require disclosure of a propriety formula to the State, 
EPA Administrator, or treating physicians or nurse in the case of a 
medical emergency. I view this as a simple matter of citizens having a 
right to know about any risks in their community.
    I have received questions as to how the FRAC Act would work. It is 
my understanding that the FRAC Act would add fracking back to EPA's 
underground injection control program, from which hydraulic fracturing 
was exempted in 2005. Under the current underground injection control 
program, States can request primacy over the process. EPA would approve 
a State's request for primacy if the State had adequate laws and 
regulations in place to protect the environment. When States have 
primacy, they are responsible for the permitting and enforcement 
process, but EPA could step in if a State is irresponsible in its 
implementation.
    I introduced S. 587, the FRAC Act, and its two corresponding bills 
on March 15, 2011. The FRAC Act was referred to this committee.
    The Marcellus Shale On-the-Job Training Act, S. 588, is with the 
Senate Committee on Health, Education, Labor, and Pensions. It would 
amend the Workforce Investment Act of 1998 to require the Secretary of 
Labor to make discretionary grants to local areas for adult on-the-job 
training or dislocated worker on-the-job training as worksites directly 
related to the exploration for, production of, and transportation of 
natural gas from the Marcellus Shale formation.
    The Faster Action Safety Team Emergency Response (FASTER) Act, S. 
589, has been referred to the Senate Committee on Health, Education, 
Labor, and Pensions. It would ensure that the citizens and environment 
are protected from any emergency situations that may arise. The FASTER 
Act of 2011 provides the Occupational Safety and Health Administration 
with the ability to draft regulations that will enhance emergency 
response procedures at oil and gas wells.
    Specifically, the FASTER Act provides OSHA the power to draft 
regulations that will require operators to:
    <bullet>  Have an employee, knowledgeable in responding to 
emergency situations, present at the well at all times during the 
exploration or drilling phase;
    <bullet>  Make available a certified response team, within one hour 
of ground travel time, if an emergency situation arises;
    <bullet>  Contact local first responders within 15 minutes of the 
commencement of an emergency situation;
    <bullet>  Contact OSHA within 1 hour of the commencement of an 
emergency situation;
    <bullet>  Contact the National Response Center within 1 hour of the 
commencement of an emergency situation;
    <bullet>  Provide communication technology at the well site (e.g., 
mobile communication or satellite phone);
    <bullet>  Provide annual training to local first responders on the 
hazards of a well site and proper emergency response techniques; and
    <bullet>  File an annual report with OSHA that names the certified 
response team assigned to each well of the operator.
    <bullet>  OSHA will have 18-months to finalize the regulations 
under this Act. The Act will allow OSHA to define the term `emergency 
situation.'
    In closing, I support responsible gas exploration, yet I strongly 
feel that we must protect against repercussions that not only harm the 
environment and put people at risk, but also hurt business and affect 
the economy. Damaging incidents can spark strong backlashes and end up 
stalling economic development. We are fortunate to have an abundance of 
natural gas, but it must be developed in a manner that fully protects 
human health and the environment, while creating economic benefits.
    Thank you again for allowing me to testify here today.

    Senator Cardin. Right. Senator Casey, let me thank you very 
much for the contribution that you are making to this debate. I 
think your legislation is one we obviously want to consider 
very closely.
    Senator Cornyn, we thank you very much. Our objectives are 
the same. We know we have a large amount of natural gas and we 
want to make sure that we can get that safely and use it for 
our energy security here in America.
    With that, the two of you are excused. Thank you very much.
    The first panel will consist of Hon. Robert Perciasepe, the 
Deputy Administrator of the Environmental Protection Agency.
    Mr. Perciasepe, it is nice to have you back before the 
committee. You may proceed as you wish. Your entire statement 
will be made part of our record.

STATEMENT OF HON. ROBERT PERCIASEPE, DEPUTY ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Perciasepe. Madam Chair, Mr. Chairman and Ranking 
Member Inhofe, thank you for inviting me to testify today. I am 
pleased to be here to discuss natural gas production and EPA's 
role in ensuring that public health and the environment are 
protected.
    Let me begin my remarks by saying that natural gas is a 
very important fuel for our country. It can enhance our 
domestic energy options, reduce our dependence on foreign 
supplies, and serve as a bridge fuel to the future and to 
renewable energy sources.
    Produced responsibly, natural gas has the potential to 
improve air quality, stabilize energy prices, and provide 
greater certainty about the future energy reserves.
    As President Obama said in a recent town hall meeting, 
``Recent innovations have given us the opportunity to tap large 
reserves of natural gas, perhaps a century's worth, in the 
shale under our feet. Now we have to make sure we are doing it 
safely without polluting our water supplies.''
    In addition, the President has ordered EPA, the Department 
of Interior and the Department of Energy to work together with 
industry, the environmental community and States to come up 
with best practices for environment and safety.
    Making sure our water supply is safe is what I would like 
to talk about today. The Clean Water Act and the Safe Drinking 
Water Act are the primary statutes we use to ensure that 
natural gas extraction through a process called hydraulic 
fracturing or fracking does not impair water quality. We 
believe natural gas can be and must be extracted responsibly in 
a way that secures its promise for the benefit of all.
    If improperly managed, hydraulic fracturing could 
potentially result in public health and environmental impacts 
at any time in the life cycle of the well and its associated 
operations. Such impacts to water could include stress on 
surface water and groundwater supplies, given the use of fresh 
water for these operations; potential contamination of drinking 
water aquifers, resulting from faulty well construction and 
completion; and compromised water quality due to the disposal 
of contaminated wastewater. These contaminants could include 
organic chemicals, metals, salts and radionuclides.
    Where we know problems exist, EPA will not hesitate to 
protect Americans' whose health may be at risk. We remain 
committed to working with State officials who are on the front 
lines of permitting and regulating natural gas production 
activities. EPA will not only use the authority that Congress 
has given it, but we are also leading on understanding the 
science behind potential drinking water contamination from 
fracking.
    As you know, EPA launched a study last year to understand 
the relationship between hydraulic fracturing and drinking 
water resources. When complete, this peer-reviewed research 
study will help us better understand the conditions that may be 
associated with the potential contamination of drinking water 
resources, as well as factors that may lead to human health 
exposure and risk. While we await the results of this study, we 
will also use our legal authorities where appropriate.
    While Congress specifically exempted selected oil and gas 
production activities from several environmental laws, a number 
of environmental protections continue to apply. For example, 
while the Energy Policy Act of 2005 excluded hydraulic 
fracturing for oil and gas production from permitting under the 
State Drinking Water Act Underground Injection and Control 
Program, these activities are still regulated under the Safe 
Drinking Water Act when diesel fuels are used as fracking 
fluids. Also flow-back and produced water through injection is 
still regulated under the Safe Drinking Water Act.
    In addition to our authorities under the Safe Drinking 
Water Act, EPA regulates wastewater from oil and gas wells 
under the Clean Water Act when they are discharged into 
publicly owned treatment works and surface waters. Under both 
of these laws, States play a major, if not leading role in its 
implementation. For States with fully delegated programs, 
including many in the Marcellus Shale region, States have the 
responsibility in making sure the laws are followed. EPA 
provides guidance to the States on how to follow these rules 
and to make sure that they are addressing all the threats to 
public health.
    The issues surrounding natural gas extraction are lengthy 
and complicated. By helping manage environmental impacts and 
addressing public concerns, natural gas production can and will 
proceed in a responsible manner that protects public health and 
enhances our domestic energy options.
    I will be happy to take any questions at this time, Mr. 
Chairman.
    [The prepared statement of Mr. Perciasepe follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Senator Cardin. Mr. Perciasepe, first of all, thank you 
very much for your testimony. I agree with the point that you 
make that there are significant environmental laws that give 
EPA authority to act in this area.
    I want to just start by I think there is general agreement 
in this committee and in Congress. We want to be able to tap 
into the natural gas reserves in this Nation. We believe that 
is an energy source that we have. We want to be able to obtain 
that energy source and we want to do it in a safe and 
environmentally sound manner.
    But as you point out, you have certain responsibilities 
under environmental laws that you are responsible to enforce. I 
listened to Senator Inhofe talk about how the fracking practice 
works so far underground, and we all understand that. You 
inject fluids that contain certain chemicals. Those fluids then 
are extracted, and when they are extracted they bring out not 
only the original fluids, but they bring out a whole host of 
potential pollutants that could be very damaging to public 
health.
    The question is: What then happens to that fluid that is 
removed during the fracking procedures? As I understand it, the 
best practice that many of the gas companies use is to recycle 
that fluid. That is fine. They recycle it. They take out the 
hard chemicals that they can, the pollutants, and dispose of 
them properly, and then we use the fluid in a way that is 
constructive to getting more natural gas.
    In some cases, they inject the fluids back into the earth 
in underground wells. That is also cases have been done in a 
very sound environmental way. But in some cases, they take it 
to the wastewater treatment facility plant that is close by, 
which to me presents significant problems. Let me just cite a 
letter that was sent by EPA, the Regional Administrator Shawn 
Garvin, to the Pennsylvania Department of Environmental 
Protection, where the EPA said wastewater resulting from gas 
drilling operations contained material that may present a 
threat to human health and aquatic environments. Many of these 
substances are not completely removed by wastewater treatment 
facilities and their discharges may cause or contribute to 
impaired drinking water quality from downstream users or harm 
aquatic life.
    Well, it seems to me that you have the responsibility to 
make sure that the wastewater treatment facilities are in fact 
complying with the permit. If you believe there is a danger to 
the public health because of the inability to remove certain 
pollutants, you need to take action. My question is: Has the 
EPA taken action? If not, why not?
    Mr. Perciasepe. Thank you for that question. There are a 
number of factors that would be involved with how we would take 
action when these fluids are used in a publicly owned treatment 
works, to do that as a general statement. There needs to be 
care-taken that the pollutants won't go through the sewage 
treatment plant or that they won't disrupt the sewage treatment 
plant's operation.
    In the case that you cited in Pennsylvania, the Regional 
Administrator has been working with the State. We have issued 
in the past information collection requests so that we could 
understand what was going on to those different sewage 
treatment plants. In many cases, those sewage treatment plants 
have stopped taking some of those fracking fluids and produce 
water.
    So we are in the process of working with Pennsylvania. 
Pennsylvania has responded to that letter that the Regional 
Administrator sent, and we feel like we are making good 
progress there.
    Senator Cardin. We appreciate that. Some of us think this 
is a pretty clear issue and that there needs to be pretty 
definitive action by EPA so that we can avoid this public 
health risk.
    There are other areas that you could be enforcing the 
environmental laws. As you know, there is no exemption if 
diesel is used in the fracking process. Yet I am not aware of 
any enforcement actions taken by EPA in that regard. Am I 
wrong? Have there been enforcement actions taken against 
fracking privileges that endanger our environment?
    Mr. Perciasepe. We have taken enforcement actions through 
issuing orders where we think there is an imminent and 
substantial endangerment. But in terms of enforcement where 
there may be diesel fuel being used for fracking, we are in the 
process of collecting information on that. We have information 
from Congress, as well as our own information collection we 
have been doing. That is in the process of going through 
enforcement procedures.
    Senator Cardin. Let me yield to Senator Inhofe. I might 
have some questions after my colleagues have completed.
    Senator Inhofe. Thank you, Mr. Chairman.
    In response to Senator Casey and his FRAC Act, I do want to 
point out that there are other points of view within 
Pennsylvania regarding the need for Federal intervention in the 
regulation of hydraulic fracturing.
    First of all, to submit testimony for the record from 
Michael Krancer, who is the Secretary of Pennsylvania's 
Department of Environmental Protection. Senator Casey may not 
realize it, but according to Secretary Krancer, Pennsylvania 
already requires the disclosure of frack fluids. As he pointed 
out, ``The State DEP's new regulations require operators to 
disclose the chemical additives and the hazardous constituents 
of those additives on a well by well basis.'' This is the DEQ 
from the State of Pennsylvania.
    He went on to say, ``Simply put, because of a long history 
of oil and gas development and comprehensive regulatory 
structure, Pennsylvania does not need Federal intervention to 
ensure an appropriate balance between resource development and 
environmental protection.''
    I would also like to highlight and submit for the record 
two studies from Penn State University examining the economic 
impacts of the current activity in Pennsylvania's portion of 
the Marcellus. The studies found that Marcellus activity, 
``generated $3.9 billion in value-added; $389 million in State 
and local tax revenues and more than 44,000 jobs. By 2020, 
employment would expand by 200,000 jobs and annual gains in 
State and local revenues would exceed $1 billion.''
    Additionally, Penn State University also concluded that 
Federal regulation, just like Senator Casey's FRAC Act, was a 
serious threat to Marcellus development: ``Proposals to 
regulate hydraulic fracturing under the Safe Drinking Water Act 
pose yet another serious threat to the development of the 
Marcellus Shale and other unconventional gas sources.''
    I would like to submit testimony also from Mike Paque who 
is from the Groundwater Protection Council. That is a national 
association of State groundwater and underground injection 
control agencies whose mission is to promote the protection and 
conservation of groundwater. That is what they do for a living.
    Their testimony describes the new frack-focused registry 
which went active just yesterday. Frack Focus provides for a 
detailed and thorough disclosure of all frack fluid 
constituents on a well by well basis, and even though 
participation at this time is voluntary, he points out, 
``within the first 8 hours of going live, Fracfocus.org had 24 
oil and gas companies signed on to use it and nine already 
uploading fracturing data on 309 wells.''
    A quick glance at the list of participating companies 
revealed that the largest companies, really the largest 
companies and small companies, are clamoring for this 
opportunity and they are participating.
    Now, clearly the States are running successful regulatory 
programs. We are going to hear from some of them today and I 
would hope, Director Perciasepe, that you would be able to 
stick around and listen to some of their testimony.
    On the Federal level, of course, EPA is doing a study on 
the impacts of hydraulic fracturing. I also understand that 
President Obama has asked the Department of Energy's Advisory 
Board to look into fracking. On top of that, the White House 
Council of Environmental Quality has been petitioned to study 
any cumulative impacts.
    I would say, Mr. Perciasepe, to help me understand these 
various studies and particularly how they all fit together, it 
would be helpful if you could commit to brief my staff on the 
efforts on maybe a quarterly basis. You have always been 
willing to do that in the past, and I am sure you would do 
that. That way, we can properly see what this oversight is 
doing.
    Now, just one thing. I was going to hold this up, by the 
way, and I am sorry I didn't. This is the Marcellus Shale. This 
is what we are talking about. This is how they have to get the 
gas out of this type of formation and the only way they can do 
it is fracking.
    So I would say that States are different. In my State of 
Oklahoma, the Anadarko Shale, we are talking about 30,000 feet. 
Go just north in Kansas, their shale is between 3,000 to 4,000 
feet. Louisiana is something like three miles deep; 
Pennsylvania, two miles deep. So it is different.
    That is why the one-size-fits-all just doesn't really work 
in this case. So the question I would ask you is, are they not 
doing a good job in the States?
    Mr. Perciasepe. There are many States taking leadership on 
this issue and they obviously, as I mention in my oral 
testimony, are on the front lines on the Safe Drinking Water 
Act and the Clean Water Act where they have authority. But let 
me just go back to the Pennsylvania example for just a minute 
that you started with, Senator.
    When the fracking fluids and the produced water were being 
brought to the publicly owned treatment works, the 
responsibility for the discharge permit of that sewage 
treatment plant is the State's, and the State's discharge 
permit did not contain limits on some of the material that were 
in the fluids that were going to the sewage treatment plant. It 
is that kind of back and forth of oversight between EPA and the 
State that I think is important to make sure that we have a 
level playing field.
    But you are correct, there is no one-size-fits-all here. 
The geology in all of these different shale formations around 
the country is different. There are different depths. There are 
different layers above them in the sedimentary rock levels. So 
we have to be able to look at those things in that way.
    So our primary role here is oversight of State programs 
where they are running the programs, providing guidance where 
we can, and where we see some imminent endangerment, we may 
take our own action on that.
    Senator Inhofe. My time is expired, but I would only say 
that once you start from the Federal level, it grows. That is 
my concern.
    I say to my friend Senator Boozman, he wasn't here during 
my opening statement, I listed a lot of the States, including 
your State of Arkansas, that has a lot of these reserves, and I 
am just really concerned over the over-regulation, but we will 
hear that from some of the State people in the next panel.
    Thank you very much.
    Senator Cardin. Senator Boxer?
    Senator Boxer. Yes. I hear what my colleague is saying 
about his preference for State regulation. I would cite an 
example, though, of New York just shutting it down for the 
moment because they are concerned. I think since Senator 
Casey's name was mentioned by my colleague, he wasn't here to 
explain what he meant, but what I heard him say is that his 
State constitution calls for defending the quality or more. 
They make it a right there to clean water and clean air. So if 
the State next door doesn't have the same type of laws, what 
happens is that his State could be impacted.
    I don't have a particular position on where we go from here 
except that I think we need to have the facts. I think that is 
the point, and I want to ask you about this.
    Will EPA's study look broadly at all potential impacts to 
drinking water, including impacts from wastewater that is 
producing during the hydraulic fracturing process, in your 
studies?
    Mr. Perciasepe. Senator, we are characterizing both the 
fracking fluids. We have gotten information from the companies. 
We are also going to be characterizing the produced water 
because the fracking fluids don't, for instance, contain 
radionuclides. These are naturally occurring in some of the 
rock formations, but they come out with some of the produced 
water.
    Senator Boxer. So the answer is yes, you are looking at 
this?
    Mr. Perciasepe. Yes.
    Senator Boxer. OK. Can you assure us that EPA will use an 
independent, comprehensive and scientific process to provide an 
accurate and unbiased assessment which will help us make sure 
drilling is done safely and responsibly and protect the public 
health?
    Mr. Perciasepe. Yes. Not only will the study plan be peer-
reviewed before we even start the study, but the actual results 
of the study will be peer-reviewed as well.
    Senator Boxer. I want to ask a question about diesel fuel 
here. On January 31, a number of Representatives in the House 
sent Administrator Jackson a letter providing the results of an 
investigation which found that diesel fuel continues to be used 
in hydraulic fracturing. First of all, to your knowledge, is 
that true?
    As you know, the Safe Drinking Water Act exemption for 
hydraulic fracturing specifically does not include the use of 
diesel fuel, so you still have the ability to regulate that, is 
my understanding.
    In 2003, EPA signed an MOU with major drilling service 
companies to eliminate the use of diesel in hydraulic 
fracturing operations. Will you provide us with an update on 
what efforts EPA has taken to protect public health from the 
use of diesel fuel in hydraulic fracturing?
    Mr. Perciasepe. The MOU or MOA, I think it was, with the 
companies that was developed was for hydraulic fracking in 
coal-bed methane production, not in the shale production.
    Senator Boxer. OK.
    Mr. Perciasepe. So that is where there was a concern 
because many of those formations are at a shallower depth.
    We are in the process of confirming and reviewing the 
information that we received from Congress. We have our own 
information requests out to the companies and we are looking at 
that as well.
    Senator Boxer. OK. As a lot of us have mentioned, millions 
of gallons of wastewater produced during the hydraulic 
fracturing process can contain radioactive elements, corrosive 
salts, carcinogens. These reports indicate wastewater is being 
sent to municipal wastewater treatment plants that may not be 
equipped to treat this waste, which could result in a discharge 
of harmful toxins to local waterways.
    What authorities does EPA now have to address the treatment 
of wastewater from natural gas drilling operations?
    Mr. Perciasepe. There are several steps that have to be 
taken in terms of the use of a publicly owned treatment works 
for disposal of the fluids. The first are that limits have to 
be placed on the permit for the sewage treatment plant. Now, if 
the State is the agency that is running the NPDES pollution 
program in that State, then they need to put those limits on 
those plants. If the State is operating the pre-treatment 
program, which would be how you treat these fluids before they 
go into the sewage treatment plant, they would be required to 
do that.
    EPA is looking into guidance on what pre-treatment might be 
useful for those kinds of waste, but the first step would be 
obviously making sure we have the right limits on every plant 
that is going to be receiving those wastes. That is part of our 
oversight responsibility.
    Senator Boxer. So you do have that oversight responsibility 
right now?
    Mr. Perciasepe. Yes.
    Senator Boxer. Are you working with municipal wastewater 
treatment plants that accept hydraulic fracturing waste to 
ensure that adequate treatment is occurring? Are you working 
with the plants themselves at this time?
    Mr. Perciasepe. Where the States are the permitting 
authority, we are working with the States, like we are doing in 
Pennsylvania.
    Senator Boxer. OK. Well, I will submit the rest of my 
questions for the record.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Boozman.

STATEMENT OF HON. JOHN BOOZMAN, U.S. SENATOR FROM THE STATE OF 
                            ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. Again, I thank 
you and the Ranking Member for having this hearing. It is very, 
very important. It is very important to my State and really 
just in the Nation in general in the sense that we certainly 
need the resources that it engenders.
    Now, currently as it stands, the gas and oil industry is 
regulated by the States as far as these type of things?
    Mr. Perciasepe. The States have been delegated the 
authority under the Clean Water Act or the Safe Drinking Water 
Act. They are the ones that have primacy or the delegated 
authority. EPA provides oversight of those States. I just went 
through an example of what that oversight might look like in a 
particular place. So that is in my written testimony also, 
Senator, the detail of all those interactions.
    But it is like almost all the other pollution laws that we 
have, an interaction between the States and the Federal 
Government with the Federal Government providing oversight and 
delegation of authority.
    Senator Boozman. Well, I think it is important as we have 
new technology, and certainly this is a new technology that 
hasn't been around very long and is a very effective 
technology, that we understand potential risks and deal with 
them, and deal with them in a sound way.
    I guess my feeling is that the Agency has the 
responsibility of providing good science to help the States in 
making their decisions. But I feel very strongly that it does 
need to remain at the State level. In the past, the oil 
industry has worked fairly well in doing that. I think that 
there is a good record. So again, I would be inclined to 
continue as we are now, again with the EPA providing sound 
science.
    When you do the studies and things, how do you make it such 
that there is an apartness? Will you be the ones that are 
selecting the people that do the study and the peer-review 
board? I guess what I am trying to see is what separation there 
is in that regard.
    Mr. Perciasepe. We have a Science Advisory Board that EPA 
uses for many of its peer-review, not all, but many of its 
peer-review----
    Senator Boozman. The Science Advisory Board, is that 
appointed by the EPA?
    Mr. Perciasepe. Yes. It is an independent Federal advisory 
committee and it provides advice to the Administrator on 
science matters that we present to it. They can set up special 
panels if they need the expertise to look at a particular 
subject. They operate in many ways similar to the way the 
National Academy of Sciences would set up a panel to look at a 
particular matter, of scientists in that field.
    Senator Boozman. OK. Thank you very much for your 
testimony.
    Senator Cardin. Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    Few things in life are more essential than the water we 
drink, and government has few responsibilities as critical as 
protecting our country's water supply. I am going to use these 
couple of minutes, Mr. Chairman, to make my statement.
    But communities across the country are reporting serious 
contamination of their water supplies from a drilling process 
that we are now looking at, fracking. And the Environmental 
Protection Agency, as we have discussed here and widely know, 
has been powerless to protect these communities because a 
Republican Congress at Vice President Cheney's behest, 
prohibited EPA from setting standards.
    This so-called Halliburton loophole eliminates the Federal 
oversight that we would like to see of companies that inject 
chemicals into the ground in order to get to the hard to reach 
natural gas. Some States, which we have heard, have adopted 
strong laws to restrict fracking, reducing the risk to their 
residents.
    But let's face it: water doesn't recognize State 
boundaries, and you may live in a State that has strong laws, 
but if the State next door doesn't, your water and your 
families could still be at risk. The risk to humans isn't 
limited to those who live near the drilling sites, and during 
the fracking process, the wastewater that flows to the surface 
can also be highly contaminated.
    A recent New York Times investigation revealed that this 
wastewater can end up in rivers and streams, and even if it is 
taken to a wastewater treatment plant, the water often contains 
radioactive and toxic materials that the treatment facilities 
cannot remove.
    We don't want to make any mistakes in our representation 
here. Natural gas has its advantages and it is critical for our 
energy needs. Natural gas is cheaper, cleaner than coal or oil, 
and an important domestic energy source for our country.
    But nothing, nothing is more important than the health of 
our children and risking their health is an unacceptable price 
under any condition. We simply can't allow their drinking water 
or our rivers and streams to be contaminated by natural gas 
drilling. We need the cleaner fuels to replace dirty coal and 
oil, but we can't allow the cure to be worse than the disease.
    That is why I have joined with Senator Casey and others on 
this committee to introduce a bill to close the Halliburton 
loophole and restore EPA's ability to regulate fracking. Our 
bill would also require companies to disclose the chemicals 
they use in the process.
    Now, 25 years ago, I authored the right-to-know law on 
toxic chemical releases in the air to make sure that people 
know about potential hazardous substances in their communities. 
Parents have a right to know what is in the fracking fluid that 
can contaminate the water their children drink, and more 
information on contaminants, which we are happy to see EPA 
undertaking, will empower citizens and help the government to 
make better decisions on pollutants in the water supply. We 
need the natural gas, but we also need clean water.
    So I look forward to hearing from our witnesses about how 
we can work together to ensure natural gas is done as safely as 
possible.
    Senator Lautenberg. Now, I want to ask you, Mr. Perciasepe, 
a question about our air in New Jersey is already dirty by 
coal-fired powerplants to the west of us, and now there are 
unprecedented numbers of hydraulic fracturing wells in 
Pennsylvania and other nearby States. What can we expect with 
air pollution coming into New Jersey from these activities?
    Mr. Perciasepe. The air emissions from oil and gas 
activities would be regulated under the Clean Air Act, 
depending on the size and the type of emission that it is. 
There have been problems with some areas of the country where 
some of the emissions from all the activities going on related 
to natural gas extraction that it has created an increase in 
emissions of volatile organic compounds or nitrogen oxides 
which has contributed to ozone. So it is certainly something 
that would have to be carefully looked at, and there is 
authority under the Clean Air Act to do that.
    Senator Lautenberg. So that is the conclusion that you come 
to at EPA, when will we be able to find out what is happening 
and what we can do to prevent it from coming all over New 
Jersey?
    Mr. Perciasepe. Well, the Clean Air Act requires technology 
to be used, and this is a process that EPA is continually 
looking at in terms of how it goes about working with the 
States and with the industry directly on those standards that 
would be used.
    One of the things that I mentioned in my opening comments 
was the President has asked the Department of Energy; the 
Department of Interior, who has responsibilities on public 
land, and EPA, who has all the regulatory oversight 
responsibilities, to work together with industry to find the 
best practices.
    Certainly, one of the things we want to make sure we are 
looking at is, what is the best practice to be used to minimize 
the air impacts of the actual practice of gas extraction. On 
the other side of the coin is the big advantage to air 
pollution of using natural gas for energy production in the 
United States.
    So we have to be able to make sure that we balance that out 
properly in the long-term air quality plans for the country.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Senator Cardin. Senator Udall?
    Senator Udall. Thank you, Mr. Chairman, and thanks for 
holding this hearing.
    I would ask unanimous consent to put my opening statement 
in the record.
    Senator Cardin. Without objection, the statement will be 
included.
    Senator Udall. Thank you. Mr. Perciasepe, in 2005, the 
Energy Policy Act included an exemption for hydraulic 
fracturing from underground injection control permits under the 
Safe Water Drinking Act. However, there was also an exemption 
from the exemption, as you are well aware, for the hydraulic 
fracturing with diesel fuel, meaning that if you injected 
hydraulic fracturing fluid with diesel in it, the statutory 
exemption did not apply.
    Recently, a House Committee report found that millions of 
gallons of diesel had been injected since 2005, including 
hundreds of thousands of gallons in New Mexico. What is EPA's 
position on this? Do you need a Federal permit to inject diesel 
fuel underground in a hydraulic fracturing operation? If not, 
please explain the court rulings, LEAF v. EPA, that came out in 
1997, and the 2005 exemption for diesel.
    Mr. Perciasepe. Hydraulic fracturing using diesel fuel for 
the fluid is subject to the Safe Drinking Water Act 
requirements.
    Senator Udall. That is under the court ruling, correct?
    Mr. Perciasepe. Well, it is the plain reading of the law, 
the 2005 law that you just referred to. We have the information 
that we received from the Congress and we also are in the 
process of gathering our own information as we are going 
through our analysis. So we are looking into this issue of 
diesel use and we will be following up on it soon.
    Senator Udall. Yes, but my very specific question here, in 
a sense it is a legal question, do you need a permit to inject 
diesel fuel? What is the EPA's position on that specific 
question?
    Mr. Perciasepe. Well, where a State has primacy, and I 
actually have a letter. The State of Texas Railroad Commission 
that Senator Inhofe mentioned earlier, has actually issued a 
letter inside the State of Texas saying that they can't use 
diesel fuel without getting a permit from them.
    Senator Udall. Well, that is the Texas situation.
    Mr. Perciasepe. Well, it is the same law for the whole 
country.
    Senator Udall. If States aren't doing what Texas is doing, 
then are you requiring a permit?
    Mr. Perciasepe. Well, that is what we are trying to find 
out and try to gather the information on where diesel fluids 
maybe being used. We have the information that was given to us. 
We are also getting information from the companies now.
    Senator Udall. So the answer to the legal question, do you 
need a permit to inject diesel fuel, you are not giving an 
answer to that today.
    Mr. Perciasepe. Yes, I just said it is subject to the Safe 
Drinking Water Act.
    Senator Udall. But if the State isn't requiring a permit, 
are you requiring a permit on folks?
    Mr. Perciasepe. Well, we have to find out where, and that 
is our investigation that is going on now. Where are these 
fluids being used? We have to know where it is being used to 
require the permit.
    Senator Udall. OK. Let me go on to something else.
    Mr. Perciasepe. Let me be clear.
    Senator Udall. Yes.
    Mr. Perciasepe. Using diesel fluids for hydraulic 
fracturing in shale is subject to the Safe Drinking Water Act. 
It would be required to get a permit.
    Senator Cardin. Will the gentleman yield for one moment so 
I can get the facts straight on this one issue?
    Senator Udall. You are taking the Chairman's time.
    Senator Cardin. I will give you an extra minute.
    Senator Udall. OK.
    Senator Cardin. According to our information, I think there 
is somewhere around 19 States that are using diesel as part of 
their injection process, and that between 2005 and 2009, there 
were 32 million gallons of injection fluids used that contained 
diesel. I would appreciate it if you could verify that for us. 
I think Senator Udall's point that it appears that permits are 
needed and we haven't seen any enforcement of this by EPA.
    I thank the gentleman for yielding, but I want to make sure 
we get the right numbers. You mentioned hundreds of thousands. 
We have 32 million gallons that were used that included diesel.
    Senator Udall. Maybe asking it another way. If they didn't 
get a permit, they were in violation of the law.
    Mr. Perciasepe. Yes.
    Senator Udall. OK, good. Now moving on here, in the 
Marcellus Shale, much of the produced water is not disposed of 
by injection wells, as you are aware, but rather is transported 
to wastewater treatment plants, many of them municipal, and 
then treated and discharged into waterways.
    Here I am trying to get at best practices. Is this better 
or worse than disposing the produced water in underground 
injection?
    Mr. Perciasepe. An underground injection well for disposal 
is going to be permitted to deal with those issues. The problem 
we have in many places, although I don't want to say this is 
everywhere, is that the discharge limits on the actual sewage 
treatment plant, the limits it has for discharge into the water 
that it is permitted to discharge into, may not have the limits 
on it for the chemical constituents that might be in the fluids 
that are going into the plant to be treated. So there would be 
no way to know if it is meeting those limits before it is 
discharged to the water.
    Now, I am not saying that is the case everyplace, but many 
publicly owned sewage treatment plants have not put limits on 
their discharge to deal with the constituents of the fracking 
fluids or of the produced water. That is the issue we are 
working on in Pennsylvania, for instance.
    Senator Udall. So you are seeing that as a problem, it 
sounds like. If they don't adjust their wastewater treatment 
plants to deal with what is coming in, which isn't like 
municipal sewage, it is much different in terms of the 
constituents, that that could be a real problem and you are 
trying to get on top of that.
    Mr. Perciasepe. Either putting limits on the plant then 
figuring out how the plant handles it, or treating the fluids 
before it is brought to the plant so that it can be compatible 
with the plant. Those are the two approaches you can take with 
a sewage treatment plant.
    Whereas a permitted class II, I think that is right, class 
II underground injection control well would actually be 
permitted to deal with those issues.
    Senator Udall. But today, we have them just loading this 
produced water in trucks and driving it over to the wastewater 
treatment plant and then dumping it in the wastewater treatment 
plant. Are you aware that they are pre-treating it?
    Mr. Perciasepe. A number of those instances where we have 
learned about this are ones that we are working directly with 
the States or gathering information under our enforcement 
authority under the Clean Water Act.
    Senator Udall. Thank you very much. Thank you for your 
service there at EPA.
    Senator Cardin. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    I wanted to ask you about the article that the Cornell 
University researchers came out with recently that tried to 
look at the impact of fracking on fugitive methane, methane 
being a very potent global warming gas, far worse than carbon 
dioxide. Their initial finding was that natural gas is worse 
than coal in terms of its greenhouse gas footprint over a 20-
year period, roughly equal to coal over a 100-year footprint, 
which is a real surprise to many of us.
    Is this an issue that the EPA is analyzing and looking at?
    Mr. Perciasepe. We have had a voluntary program working 
with companies to tighten up their system, to reduce fugitive 
emissions of methane, which is a natural gas. However, this 
study, which I don't think has actually been published yet, 
although obviously it has been discussed in the newspapers and 
the basic outlines of it are available there, is an important 
piece of information that we need to bring into the discussion.
    If it indeed is from leakage out of the system, these are 
generally problems that can be addressed through proper 
controls or through collection controls at the wellhead. So I 
think it needs to be taken into account.
    The other issue I mentioned earlier on clean air, the same 
kinds of techniques that reduce the emissions for regular 
criteria pollutants would also reduce the emissions of methane. 
This is something that is going to have to be looked at over 
the long haul here. We are going to have to make sure that 
fugitive emissions can be reduced.
    Senator Merkley. So my understanding is that a lot of these 
emissions are the result of actually the fracking fluid 
carrying the methane to the surface and if it goes into a pone 
of anywhere else, that methane then gases into the atmosphere. 
So if it is contained in the fluid, what strategies are there 
that could address this?
    Mr. Perciasepe. There are technologies that can be used 
when the fluids come to the surface.
    Senator Merkley. That is what I am asking.
    Mr. Perciasepe. There are technologies.
    Senator Merkley. No, I am asking what technologies.
    Mr. Perciasepe. I am not familiar with the details. They 
are both tightening of the system, but also collected and 
stripped or some other. I am not 100 percent certain on the 
technology. We have been working with companies in a voluntary 
program to do some of these, and I think I can followup with 
you, if it is OK, with giving you more specifics on what 
technologies have been tried and used. We would be very 
interested in sharing that with the committee, and obviously it 
is something that if this study, after we review it, adds to 
this discussion, we are going to definitely want to be looking 
as a country at reducing the emissions from facilities.
    But in addition, we want to be looking at reducing the 
emissions of the criteria pollutants that are causing ozone and 
other problems as well. So all that can be done together in a 
common sense kind of way.
    Senator Merkley. Are you familiar with the documentary 
Gasland?
    Mr. Perciasepe. I am generally familiar with it, yes.
    Senator Merkley. That was quite a dramatic demonstration. I 
haven't seen it. I just read the description of it. So the 
filmmaker runs his kitchen faucet and then holds a cigarette 
lighter up next to it and a ball of fire erupts because there 
is so much gas that it has entered into the water supply from 
fracking in the area. So this is obviously a pretty dramatic 
demonstration of the concern people have about their water 
supply.
    Mr. Perciasepe. Yes, and we definitely have examples, and 
you have seen some, of where the drinking water supplies have 
been contaminated with methane itself. In those cases where we 
learn of this, EPA is taking enforcement actions to correct 
those problems or deal with those problems.
    As Senator Inhofe showed earlier in his chart, which showed 
the shale layers being very deep, but the actual well has to go 
through drinking water. So if it is not properly constructed, 
it is conceivable and possible, and we have examples where we 
have seen methane contamination. How that has happened is what 
is the subject of some of our analysis.
    Senator Merkley. So in that area, despite the Halliburton 
loophole, you feel like you have enforcement powers?
    Mr. Perciasepe. When there is endangerment, we have 
enforcement powers under the Safe Drinking Water Act.
    Senator Merkley. Thank you.
    Senator Cardin. Mr. Perciasepe, again thank you for your 
testimony.
    Let me just point out that EPA has authority here to act in 
certain areas. Obviously, we think it is not adequate, then we 
will look at taking action, and Senator Casey has introduced 
legislation. But it seems to me that it is pretty clear as it 
relates to the wastewater treatment facility issues on the 
fluids that are returned to the surface.
    It is my understanding there are still seven wastewater 
treatment facility plants taking today the fluids coming out of 
fracking. With your own agency already acknowledging that it 
presents a threat to human health, I would hope that would be 
at the highest priority as you look at the appropriate role for 
the EPA.
    I think Senator Udall's point concerning the diesel issues 
is one also that requires EPA to take more definitive action. 
Senator Merkley has raised a very important issue also.
    So I hope that you will respond to the urgency of some of 
these issues. As you have already pointed out, you have the 
authority. It is now your responsibility to take action.
    Is there any Member seeking a second round?
    Senator Inhofe, are you OK?
    Senator Merkley?
    Yes, sir.
    Mr. Perciasepe. I just want to confirm what you just said, 
Senator, that EPA is acting on all these fronts. We are taking 
action where there is imminent endangerment, as we just 
discussed. I think if you look and step back for a minute that 
the dynamic between the States and the Federal Government and 
how we have shared our authorities under these laws for many 
years. Certainly, EPA's responsibility in oversight is one that 
we are very much pushing forward on in a very strong and 
strenuous way.
    If I step back to my opening comment and just simply say 
that providing a framework that provides public confidence in 
what we are doing here, because of the great need the country 
has to develop these resources for our energy needs. What we 
also need to do at the same time is get together and make sure 
we are trying to provide the confidence the public needs to 
allow this to happen, and you won't see in the long haul these 
situations where there is an unknown or there is uncertainty or 
that States like New York, for instance, have to stop all 
activity because they are just trying to find out what is going 
on.
    So we need to be looking at it from that perspective on a 
national level. How do we create that public confidence to move 
forward in the ways we need to move forward?
    So I appreciate the chance to share some of these thoughts 
with the committee.
    Senator Cardin. We fully agree and want to work with you 
closely. The Chesapeake Bay Foundation and a host of other 
groups have petitioned the Obama administration to conduct a 
programmatic environmental impact statement to help understand 
the impact of all of the wells being currently operated.
    Without objection, I will include in the record the copy of 
their petition.
    [The referenced document was not received at time of 
print.]
    Senator Cardin. Thank you very much for your testimony.
    Mr. Perciasepe. Thank you.
    Senator Cardin. We will now turn to our second panel, which 
consists of Dr. Bob Summers, the acting secretary of the 
Maryland Department of the Environment; Dr. Dan Volz, the 
director of the Center for Healthy Environments and 
Communities; Mr. Jack Ubinger, senior vice president, 
Pennsylvania Environmental Council; Jeff Cloud, the vice 
chairman of the Oklahoma Corporation Commission; and David 
Neslin, the director of the Colorado Oil and Gas Conservation 
Commission.
    We will start with Dr. Summers. Welcome.

     STATEMENT OF ROBERT SUMMERS, ACTING SECRETARY OF THE 
      ENVIRONMENT, MARYLAND DEPARTMENT OF THE ENVIRONMENT

    Mr. Summers. Thank you.
    Chairman Cardin, Ranking Member Inhofe, honorable Members 
of the committee, thank you for the opportunity to share 
Maryland's experience and concerns with hydraulic fracturing in 
the Marcellus Shale. I am Bob Summers, acting secretary, 
Maryland's Department of the Environment.
    The Marcellus Shale formation underlies Garrett County and 
part of Allegany County in Maryland in the far western part of 
our State. In these two counties, gas companies have leased the 
gas rights on more than 100,000 acres.
    We are just beginning to enter into this. We currently have 
applications from two companies for a total of five wells. We 
are very mindful of the tremendous benefits that could accrue 
tot he environment and the economy by exploring and exploiting 
these gas reserves, but we are equally alert to the risks of 
adverse public health and environmental effects.
    Our paramount concern is protecting public health, the 
environment, and our ground and surface water quality. We are 
proceeding cautiously and deliberately and do not intend to 
allow drilling and fracking in the Marcellus Shale in Maryland 
until these issues are resolved to our satisfaction.
    There are numerous issues. We have heard a lot about those 
already. Some of the things we are particularly concerned about 
are the adequacy and sustainability of surface water and 
groundwater in the region to supply fracking; minimum 
requirements for constructing casing and cementing wells; 
minimum requirements for the integrity testing of those wells; 
requirements for installing and testing blowout prevention 
equipment; the potential for gas migration up from the well, 
including migration that can be induced from some of those 
layers that the well goes through versus failure of the well 
itself; toxicity in transport of fracking fluids; proper 
handling and disposal of naturally occurring radioactive 
materials, and many other aspects of this complex operation 
that need to be controlled.
    In Maryland, we are moving forward. We anticipate to take 
it in two stages in doing this. First, over the next year, we 
are surveying existing practices and selecting best practices 
for drilling and fracking of wells. These will cover all 
aspects of safe preparation and design, delivery and management 
materials, drilling casings, cementing, fracking and waste 
disposal.
    After we develop this interim we will call it gold 
standard, we will consider issuing permits for a small number 
of exploratory wells to be drilling and fracked in Maryland and 
we will carefully monitor these to provide more detailed 
information that we can use in order to take the second step in 
our process, using the data from the exploratory wells, along 
with the results of other research we are gathering from the 
surrounding States and other areas.
    If we determine that gas production can be accomplished 
without unreasonable risks to human health and the environment, 
the Department could then make decisions on applications for 
production wells. Permit conditions will reflect all of these 
best practices and avoid public health and environmental harm.
    We need the Federal Government to take a more active role 
in studying and regulating activities such as deep drilling, 
horizontal drilling, hydraulic fracking and waste disposal. 
While we believe States should retain the responsibility and 
should be able to enact more stringent requirements if they 
desire, the Federal regulatory floor will ensure at least basic 
protection of public health.
    We believe that Federal technical support and oversight 
such as occurs now with the Clean Water Act and Safe Drinking 
Water Act are particularly important to protect our interstate 
waters such as the Susquehanna River, the Potomac River, 
Chesapeake Bay, which are all critical resources. In fact, 
today we have right here probably Potomac River water which 
also needs to be protected for the citizens in this area.
    We commend Congress for directing U.S. EPA to conduct this 
research. The States need the Federal Government to lead and 
lend resources to help us in this effort. We support the 
legislation that we have just heard discussed today to allow 
regulation under the Federal law, under the Safe Drinking Water 
Act and to require disclosure.
    So thank you for taking the initiative to inquire into this 
important issue and for providing this opportunity. I would be 
happy to answer any questions.
    [The prepared statement of Mr. Summers follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Senator Cardin. Thank you, Dr. Summers.
    Now, I will turn to Dr. Volz.

 STATEMENT OF CONRAD DANIEL VOLZ, DIRECTOR, CENTER FOR HEALTHY 
                  ENVIRONMENTS AND COMMUNITIES

    Mr. Volz. Thank you all for the opportunity to testify this 
morning at this joint hearing on public health and 
environmental impacts. I believe that unconventional gas 
extraction in deep shale deposits presents considerable risks 
to public health and safety, as well as to environmental 
resources, particularly water quality and aquatic organisms.
    My testimony today is going to cover three critical public 
health and environmental policy areas related to unconventional 
natural gas production. No. 1, it is largely unregulated siting 
of these wells, patterns of violations from Marcellus Shale 
wells that show impacts on water resources, and finally I think 
a very important issue that has been brought up a couple times, 
the toxic substances that are entering surface water sources 
from disposal of flow-back waters through brine treatment and 
sewage treatment plants.
    First of all, I am going to talk about the unregulated 
siting of natural gas wells in areas of high population 
density, which also occurs near schools, critical 
infrastructure. This is shown in slide three of my presentation 
that I gave to the committees today. Unconventional gas 
extraction wells are highly industrialized operations that bear 
little resemblance to what we know in Northeastern United 
States of conventional oil and gas exploration.
    These wells are highly, as I said, highly industrialized 
and there can be risks of catastrophic blowout, explosion, and/
or fire. Any of these can create an immediately dangerous to 
life and health situation.
    The unregulated siting of unconventional natural gas wells 
and production facilities in residential neighborhoods and near 
critical infrastructure is very unwise public health 
preparedness policy, especially in light of the tens of 
billions of dollars that we are spending at Federal and State 
level to reduce risk from terror attacks on USA citizens and 
damage to critical infrastructure.
    Second, the higher rates and differential patterns of Oil 
and Gas Act violations, and they are listed on slide four of my 
presentation, are very different as compared to conventional 
oil and gas wells, and suggest a much greater impact to 
drinking water and aquatic resources.
    We have done a study at my outfit that shows that Marcellus 
wells have about a 1.5 to four times, depending on the 
denominator you use, more violations than conventional oil and 
gas wells per offending well, and that those violations are 
more serious and that the violations have a more direct impact 
on water quality, things like failures to minimize accelerated 
erosion, implement erosion and sedimentation plans, discharge 
of pollution to the waters of the Commonwealth of Pennsylvania, 
many general violations of the Clean Streams law, failure to 
properly store, transport, process or dispose of residual 
wastes, and failures to adequately construct or maintain these 
impoundments that hold actually toxic flow-back water.
    The third problem and a problem that my group has been 
looking at, both sewage treatment plants and brine treatment 
plants, we have been looking at the disposal of flow-back 
fluids through these plants. We sampled a brine treatment 
facility in Indiana County, PA called Pennsylvania Brine 
Treatment, Josephine Facility, and we found that coming out of 
the effluent pipe of that plant was discharge of nine 
pollutants, essentially all in excess of nationally recognized 
human and/or aquatic health standards into the nearby Blacklick 
Creek.
    These contaminants included barium, and what was coming out 
in the effluent was eight times the minimum risk level in 
drinking water for children and 27 times the EPA consumption 
concentration for fish and fish-plus-water. Strontium was 
found. Bromide was coming out in the effluent water and its 
level was almost 10,000 times the level that the water 
treatment facilities like to see in background water of 100 
parts per billion. Benzene was found coming out at two times 
the drinking water standard and six times its EPA consumption 
criteria and 1.5 times the drinking water minimum risk level 
for children.
    Last, we found butoxyethanol coming out of the effluent 
pipe. This is a glycol ether that is used in Marcellus Shale 
gas extraction. We found it coming out at between 24 to 55 
times the derived drinking water minimum risk level for 
intermediate exposure for men, women and children.
    Thank you very much.
    [The prepared statement of Mr. Volz follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Senator Cardin. Thank you very much for your testimony.
    Mr. Ubinger.

STATEMENT OF JACK UBINGER, SENIOR VICE PRESIDENT, PENNSYLVANIA 

                     ENVIRONMENTAL COUNCIL

    Mr. Ubinger. Thank you, Chairwoman Boxer, Chairman Cardin, 
Ranking Member Inhofe and Ranking Member Sessions for the 
opportunity to present testimony on behalf of the Pennsylvania 
Environmental Council concerning our work relating to shale gas 
development in Pennsylvania.
    It goes without saying, and a number of the Members have 
already spoken to this, that there are enormous economic and 
strategic energy implications to the development of the shale 
gas resource. But as you have all been quick to add, it must be 
done right.
    Pennsylvania's participation in the Nation's shale gas boom 
is relatively recent. It has occurred over the past 5 years 
with the development of the Marcellus Shale formation. As the 
statistics cited in our written testimony suggest, the 
development of the Marcellus Shale gas formation in 
Pennsylvania has increased at an ever-quickening pace and is 
expected to continue to do so.
    While we in Pennsylvania appreciate the positive energy and 
economic attributes of shale gas development, we are also 
cognizant that throughout its history, Penns Woods has paid an 
enormous price for the exploitation of its bountiful natural 
resources.
    In today's political discourse in many contexts, much is 
said about the burden that our current actions will impose upon 
future generations to come. Today in Pennsylvania when it comes 
to the legacy of natural resource exploitation, we are that 
future generation and the costs of restoration of degradation 
to our environment from prior resource exploitation is 
substantial.
    If the lessons of the past have taught us anything it is 
this. Now, while we are in the formative years of a shale gas 
industry, an industry that will be a prominent part of our 
landscape for generations to come, we must identify and 
quantify the impact to our land, our water, our air and our 
communities and establish a regulatory framework that mitigates 
those impacts to the greatest extent practicable so that 
avoidable environmental degradation is not part of our legacy 
to future generations.
    The written testimony that we submitted to the committee 
staff last week describes our work over the past two and a half 
years and identifies a number of enhancements to Pennsylvania's 
preexisting regulatory structure which we believe are essential 
to the prudent management of shale gas development. I would 
welcome the opportunity to answer any questions the committee 
may have with respect to our written testimony.
    However, what I would like to focus on at the moment is the 
issue of cumulative impacts and the question is: How do we 
efficiently acquire relevant information to objectively assess 
and mitigate the cumulative impacts of the variety of 
activities which are required to extract, process and move 
natural gas from wellhead to the market?
    We believe that the elements of an efficient process for 
assessing and mitigating cumulative impacts are found in a 
program established by the Susquehanna River Basin Commission 
to regulate water withdrawals for hydraulic fracturing. SRBC 
implements a robust data collection program which predates the 
Marcellus Shale development in Pennsylvania. However, the SRBC 
data base, which is expanded to include more information from 
headwater areas of the Marcellus Shale regions of the river 
basin, is used to make informed decisions for the authorization 
of water withdrawals and informed decisions as to when the 
authorized withdrawals must be suspended to avoid adverse 
impacts. The key, we think, is that it is the routine 
collection of data.
    Similar data base assessment programs are not currently 
feasible for assessing the cumulative impacts of other 
attributes of shale gas development such as discharges from the 
surface management of wastewater or air emissions from shale 
gas development activities because the capacity to collect 
relevant field data is not available.
    The Pennsylvania Environmental Council firmly believes that 
shale gas development cannot be properly managed without an 
investment in the capacity to routinely measure cumulative 
impacts on an ongoing basis. We further believe that the 
Federal Government, as well as the State, has a vital role in 
establishing and funding a continuing research agenda that will 
enable the collection and evaluation of the data required to 
assess and mitigate cumulative impacts.
    We also believe that it is vitally important that the shale 
gas industry and the government both at the Federal and State 
level collaborate on projects to develop and demonstrate 
through data best management practices to mitigate impacts and 
require the implementation of best management practices 
throughout through appropriate regulations.
    In closing, let me reiterate. The successful development of 
shale gas resources is economically important to the States in 
which is occurs and strategically important to the country as a 
whole, but it is critical that we do it right.
    The Pennsylvania Environmental Council has focused its 
efforts on the development of a regulatory program in 
Pennsylvania which is based on proactive information-driven 
processes designed to identify and quantify impacts, including 
cumulative impacts and to mitigate those impacts to the 
greatest extent possible through best management practices 
appropriately codified in the regulatory framework.
    We believe that our recommendations for Pennsylvania can 
serve as a model for others in the regulation of unconventional 
natural gas development.
    Once again, let me thank the committee for this opportunity 
to present our testimony.
    [The prepared statement of Mr. Ubinger follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Mr. Ubinger, thank you very much for your 
testimony.
    Mr. Cloud.

 STATEMENT OF JEFF CLOUD, VICE CHAIRMAN, OKLAHOMA CORPORATION 
                           COMMISSION

    Mr. Cloud. Thank you very much, Mr. Chairman, Madam Chair 
Boxer and Ranking Member Inhofe, I very much appreciate the 
opportunity to visit with you today about the regulation of 
hydraulic fracturing and Oklahoma's many decades of experience 
in this regard. I ask that my corrected testimony be submitted 
in the record.
    Senator Cardin. Without objection, all of your statements 
will be included in the record.
    Mr. Cloud. Thank you.
    The Oklahoma Corporation Commission was first given 
responsibility for regulation of oil and gas production in 
Oklahoma in 1914. Currently, the Commission has exclusive State 
jurisdiction over all oil and gas industry activity in 
Oklahoma, including oversight and enforcement of rules aimed at 
pollution prevention and abatement the State's precious water 
supplies.
    Presently, there are over 185,000 wells in Oklahoma and 
thousands of miles of gathering and transmission pipelines. In 
recent years, the Woodford Shale in Oklahoma has become an 
important source of natural gas for the Nation. The development 
of Oklahoma's Woodford Shale, like other shale regions in the 
United States, has been made possible by horizontal drilling 
and hydraulic fracturing technologies.
    Hydraulic fracturing, as Senator Inhofe said, has been used 
in Oklahoma for over 60 years and more than 100,000 Oklahoma 
wells have been hydraulically fractured over that period. Over 
that more than half-century of hydraulic frack experience, 
there has not been one single documented instance of 
contamination to groundwater or drinking water as a result of 
this process.
    To say we take protection of our water quality seriously 
would be an understatement. Our rules are constantly reviewed 
and updated with that in mind. Our rules include a general 
prohibition against pollution of any surface or subsurface 
fresh water from well completion activities.
    Oklahoma Corporation Commission rules address procedures in 
the event of unanticipated operational or mechanical changes. 
Standard Commission rules also require an operator to submit a 
well completion report within 30 days after completion of 
activities. The volumes of fluids used in this process are 
required on the form.
    Last fall, the Oklahoma Corporation Commission volunteered 
to have its hydraulic fracturing program reviewed by a 12-year-
old multi-stakeholder organization known as STRONGER or by its 
full name, State Review of Oil and Natural Gas Environmental 
Regulations. From October 2010 through January 2011, a seven-
person again multi-stakeholder review team afforded by STRONGER 
conducted an in-depth examination of Oklahoma's hydraulic 
regulatory program.
    The review team included Leslie Savage of the Texas 
Railroad Commission, Wilma Subra of Subra Company of New 
Iberia, LA and a noted critic of the domestic oil and gas 
industry, and Jim Collins of the Independent Petroleum 
Association of America. Official observers included the 
Oklahoma Sierra Club and the U.S. Environmental Protection 
Agency Region VI.
    The review team concluded that the Oklahoma program is 
overall well managed, professional and meets its program's 
objectives.
    Incidentally, the U.S. EPA and the U.S. Department of 
Energy have provided grant funding to STRONGER to support its 
activities.
    I would also note that in Oklahoma, collaboration involving 
the regulated oil and gas industry, other stakeholders and my 
State's agency staff have repeatedly led to successful 
development of rules and policies to address environmental 
protection issues, particularly the protection of water.
    An example, there are two particular lakes that are 
exceptionally clean in Southeastern Oklahoma, Lake Atoka and 
McGee Creek Reservoir, that provide a very high quality water 
to the city of Oklahoma City about 100 miles away. But the 
lakes are also on top of deep rock deposits that hold huge 
amounts of natural gas, which in the best interests of Oklahoma 
and the Nation, we want to allow the petroleum industry to find 
and produce.
    Without the need of any Federal intervention, the city of 
Oklahoma City, the regulated oil and gas industry and the State 
worked together to come up with acceptable protections because 
we all realize that it is in our mutual best interest to ensure 
proper and practical water and environmental protections, 
without cutting off access to critical resources.
    Nature by itself unfortunately did not bless Oklahoma with 
any large natural bodies of water, so fresh water is especially 
precious in my State. Oklahoma has more than 50 man-made lakes 
and it is worth noting that Texas is currently suing Oklahoma 
in Federal Court to get our State's water. We must be doing 
something right.
    All of us can agree that there needs to be rules of the 
road and that those rules need to be followed and enforced. We 
are making sure that those rules are followed and that 
Oklahoma's water and our environment are protected. Our record 
is clear that State regulation is the best way to meet those 
goals.
    I and my two fellow Commissioners both hold elected 
statewide positions. We are directly accountable to our fellow 
Oklahomans and we all have a vested and personal interest in 
ensuring our water is protected. After all, and not be trite, 
we drink the water, too.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Cloud follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Senator Cardin. Thank you very much for your testimony.
    Mr. Neslin.

   STATEMENT OF DAVID NESLIN, DIRECTOR, COLORADO OIL AND GAS 
                    CONSERVATION COMMISSION

    Mr. Neslin. Thank you.
    Mr. Chairman, Ranking Member Inhofe, other Members of the 
committee, thank you for the opportunity to provide our 
perspective on how Colorado protects public health and the 
environment while we develop our oil and gas resources.
    My name is David Neslin. I am the director of the Colorado 
Oil and Gas Conservation Commission. We are a major oil and 
gas-producing State with a rich natural heritage and a thriving 
outdoor economy.
    I want to focus my comments today on the subject of 
hydraulic fracturing.
    Most of Colorado's 44,000 oil and gas wells, as well as the 
thousands of new wells that will be drilled in the coming 
years, rely on hydraulic fracturing. This technology is vital 
to unlocking our rich oil and gas reserves which are a critical 
source of domestic energy and provide good-paying jobs and 
needed tax revenues to our communities.
    But it is also essential that this development occurs in an 
environmentally responsible manner that protects our drinking 
water. This is a fundamental part of our regulatory mission and 
it is something that everyone at our agency takes very 
seriously.
    To this end, our environmental professionals have 
investigated hundreds of groundwater complaints over the years. 
To date, we have found no verified instance of hydraulic 
fracturing harming groundwater. These investigations are all 
publicly available.
    We have also required operators to test water quality 
repeatedly and over time in more than 1,900 water wells in one 
of our most productive natural gas fields. Thousands of nearby 
oil and gas wells have been hydraulically fractured and if 
fracturing fluids were reaching those water wells, then you 
would expect the water's chemical composition to change. But 
independent analysis has found not statistically significant 
changes to those waters. This analysis is likewise publicly 
available.
    In addition, we have comprehensively updated our regulation 
to address a broad range of environmental issues. Our current 
rules strike a responsible balance between energy development 
and environmental protection, and they reflect substantial 
input from local governments, oil and gas companies, 
environmental groups and thousands of individuals from across 
our State.
    Other States have taken or are taking similar action, 
including Wyoming, Oklahoma, Ohio, Pennsylvania, and Arkansas. 
These recent State rulemakings exemplify the benefits 
associated with State oversight and site-specific regulation, 
and they specifically address hydraulic fracturing.
    In Colorado, for example, wells must be cased and cemented 
to protect aquifers and well pressures must be monitored during 
hydraulic fracturing. Operators must inventory chemicals 
including hydraulic fracturing fluids and provide this 
information upon request to the State and certain health care 
professionals.
    There are mandatory setbacks and enhanced environmental 
protections for oil and gas development near public drinking 
water sources. Additional pressure testing, well testing, water 
well sampling is required for shallow of cold-bed methane 
wells. Enhanced requirements apply to pit permitting, pit 
lining, pit monitoring, to ensure that waste, including any 
flow-back of hydraulic fracturing fluids, is properly 
contained.
    Now, these regulations are important and they have 
substantially improved our groundwater protection, but we 
haven't stopped there. We are continuing to take proactive, 
cost-effective steps to ensure that hydraulic fracturing 
protects public health and the environment.
    First, we and other States have worked closely with the 
Groundwater Protection Council on the launch of the new Website 
fracfocus.org. This site encourages oil and gas operators to 
voluntarily provide information on the chemicals they use to 
hydraulically fracture a well and complements our own 
regulatory framework.
    Second, we have arranged to have our hydraulic fracturing 
regulations professionally audited this summer by STRONGER, a 
national organization consisting of State regulators and 
industry and environmental representatives. STRONGER recently 
completed similar reviews of Oklahoma, as you have heard, as 
well as Pennsylvania, Ohio and Louisiana. We are having them 
review Colorado's program to determine whether further 
improvements can be made at our end.
    Third, we are actively investigating the alleged use of 
diesel fuel or fluids containing diesel fuel for hydraulic 
fracturing in Colorado. While we believe that our regulations 
would have prevented contamination of drinking water supplies, 
we are collecting information to independently assess that 
issue.
    Fourth, we continue to address public concerns on this 
issue in an open and transparent manner. Just this last 
February, our Commission convened a full public hearing to 
examine an allegation of water well contamination. In that 
case, our Commissioners, a diverse board representing 
environmental, industry, local government, and other sectors, 
unanimously determined that hydraulic fracturing had not 
impacted the well in question.
    In summary, I want to stress how seriously we take this 
subject and that many other States are taking similar action. 
Our experience and that of other States demonstrates how 
hydraulic fracturing and other oil and gas activities are 
effectively regulated at the State level where highly diverse 
regional and local conditions are more fully understood and 
where rules can be tailored to fit the needs of local basins, 
local landscapes and local communities.
    Thank you.
    [The prepared statement of Mr. Neslin follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Senator Cardin. Thank you all for your testimony.
    I am going to urge the committee Members if they could 
limit themselves to a 4-minute round so we can get the panel 
completed before the vote on the floor.
    Let me thank all of you for your testimony.
    Mr. Cloud, I just really want to compliment the actions 
taken in your State of Oklahoma. I think you have provided a 
good model that should be used in other States.
    I am very impressed that the back-flow by State action can 
either be recycled or must be put into, as I understand it, one 
of the containment wells which operates under the Clean Water 
Act.
    So it seems to me that you have been able to do exactly 
what Mr. Perciasepe indicated, the Federal Government working 
with the State to develop the right framework for dealing with 
natural gas extraction.
    Why is it that you prohibit the back-flow from entering 
into our wastewater treatment facility plants? Why have you 
taken that action?
    Mr. Cloud. Thank you, Mr. Chairman.
    I believe that the State has for many years since we have 
been doing hydraulic fracturing for 60 years, we have kept a 
close eye on it. We just make sure that the frack fluids be 
kept out of the water supplies and they are never sent to water 
treatment facilities, as you outlined, only to be recycled or 
to be back-injected into abandoned wells.
    Senator Cardin. I think that is the right way to proceed 
and I am curious as to why Pennsylvania and other States are 
still allowing the back-flow to enter treatment facility 
plants. Do either one of my friends from Pennsylvania have an 
explanation as to why the State is still permitting that?
    Mr. Volz. Well, I think I do, Senator. It essentially 
boiled down to there was a very pressing need to dispose of a 
lot of material. There were a lot of wells drilled very 
quickly. I believe it was an oversight by our Pennsylvania 
Department of Environmental Protection that a lot of this 
material was going to these brine treatment facilities that are 
very inefficient, as well as these sewage treatment plants. No 
one had a real handle on it.
    Senator Cardin. It is my understanding there are wells that 
it could have been injected to. It may have required some 
transportation, but there are wells that would have accepted 
it.
    Mr. Volz. In Ohio, sir.
    Senator Cardin. Yes, but it was a transportation issue, a 
cost issue, I assume, so it is pragmatic decision made which is 
we never want to see public health put at risk due to a 
pragmatic judgment.
    Dr. Summers, as I understand it, the Maryland legislature 
did not act yesterday on a moratorium, but as I understand what 
you were saying, at the present time Maryland is uncomfortable 
in moving forward until you understand the practices that will 
be used will be safe for public health. Is that true?
    Mr. Summers. That is correct. We have just started to 
receive permits. We have been watching very closely what has 
been going on in Pennsylvania. We are reviewing the work out of 
New York, looking at what is going on in other States; are very 
interested to look more closely at how Wyoming is handling 
this.
    Our plans are to proceed very cautiously, make sure that we 
do have the best practices in place so we are able to take 
advantage of information that these other States that have more 
experience than we do have, and also trying to work with the 
Environmental Protection Agency because as I said, we believe 
their role is very critical in providing the background 
information and technical support.
    Senator Cardin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I am sorry about 
the votes coming up. I think you are doing the right thing, 
though, although we would all like to have more time to ask 
questions.
    Let me first of all talk to Commissioner Cloud and Director 
Neslin.
    Director Neslin, you didn't say what percentage of your 
wells would be hydraulically fracked. Would either one of you 
have just a rough estimate as to the percentage in the State of 
Oklahoma and the State of Colorado that would be using that 
technology in their fracking?
    Mr. Neslin. In Colorado, it would be substantially all 
wells.
    Senator Inhofe. OK.
    Mr. Cloud. In Oklahoma, it would be much the same. We have 
185,000 active wells and 100,000 of them have been fracked, but 
the newer wells that utilize horizontal drilling are all 
hydraulically fracked.
    Senator Inhofe. OK. I would just remind this panel up here, 
for those who weren't here in my opening statement, that we 
initiated the very first hydraulic fracturing in Oklahoma 60 
years ago. So we know something about it.
    Over the past few weeks, there has been a lot of focus on 
the disposal of both flow-back water in frack jobs and produced 
water from oil and gas wells, especially in Pennsylvania. Could 
you tell us how this water is disposed of in your two 
respective States, kind of briefly?
    Mr. Neslin. Certainly. In Colorado, a majority of the water 
is recycled and reused. If we are talking about the end 
disposal, final disposal of the water, about 60 percent is 
reinjected deep underground in permitted underground ejection 
wells. About 20 percent is evaporated. About 20 percent is 
discharged surface waters under State water quality permits 
that do contain environmental and health-based standards.
    Mr. Cloud. In Oklahoma, we recycle most of the frack water, 
but when it is used up, we have 10,500 injection wells that we 
put the water down, the fluids down in.
    Senator Inhofe. So it is roughly the same as they are doing 
in Colorado, then.
    How do your agencies respond to and investigate groundwater 
complaints, Director Neslin? Your agency recently investigated 
I think it was in Southern Colorado some complaints. Will you 
tell us how you do that?
    Mr. Neslin. Certainly. This is the event I mentioned that 
led to the hearing this last February. A couple of things about 
this are important. We got a complaint. We had an inspector on 
site in 16 hours collecting samples for laboratory analysis. 
This inspector has a Ph.D., in chemistry and 25 years of 
experience. He spent over 40 hours investigating the alleged 
contamination; worked with other members of our staff, 
including our engineering staff; wrote a 30-page report 
documenting his investigation and the various types of analysis 
that were used as part of that exercise.
    When the landowner was dissatisfied with the conclusion 
that the staff had drawn, which was that there had been no 
impact from hydraulic fracturing, he received a full hearing, a 
half-day hearing, before our Commission within 60 days. Then 
our Commission unanimously affirmed the staff's finding.
    So I think in terms of the rigor of the analysis, the 
timeliness of the work and the transparency of the process, 
this compares very well.
    Senator Inhofe. OK.
    About the same in Oklahoma?
    Mr. Cloud. It is about the same, Senator. We have an 
extensive field staff that are all over the State monitoring 
the wells and the well activity.
    Senator Inhofe. OK. I only have about 30 seconds left. I 
would like to have each one of you talk about new technologies 
that are coming along. Is there a procedure? I will just 
confine this to Commissioner Cloud. Any kind of a procedure 
where you investigate these new technologies to what possible 
dangers could come up and what you do to mitigate these?
    Mr. Cloud. As I said, our staff is on top of it all the 
time, and we have a Complaint Division that if anybody has a 
complaint, like was outlined in Colorado, we are 24-hour 
accessible and we try to stay on top of every single instance.
    Senator Inhofe. Thank you very much.
    Dr. Volz, you made several comments about the risk levels 
and that type of thing. There was a very negative article in 
the Pittsburgh Tribune Review yesterday that I am sure that you 
have read by now, and I would like to ask that that be made a 
part of the record.
    Senator Cardin. Without objection, it will be included in 
the record.
    Senator Inhofe. Thank you. Thank you, Mr. Chairman.
    [The referenced document follows on page 376.]
    Senator Cardin. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    Mr. Neslin, as I listened to your testimony, it sounded 
like there has never been any problem in Colorado and ``We 
found no verified instance of hydraulic fracturing harming 
groundwater.'' How do we square that with the documentary I 
referred to earlier where Mike Markham takes and pours water 
out of his kitchen faucet, holds a cigarette lighter up to it, 
and after a few seconds, a ball of fire erupts out of the sink, 
almost enveloping Markham's head? The source of the flammable 
water and the substance of gas is a mining process called 
hydraulic fracturing.
    How does that square with no verified instance of hydraulic 
harming groundwater?
    Mr. Neslin. Senator, we investigated that allegation. We 
investigated that well. The facts are that that water well was 
completed in a coal-bearing formation that contains what is 
called biogenic methane, methane unrelated to oil and gas 
development.
    There are papers, published papers by the U.S. Geological 
Survey and the Colorado Geological Survey dating back more than 
30 years verifying that fact, that in these formations there is 
naturally occurring biogenic methane not attributable to oil 
and gas development; not released by oil and gas development.
    The allegations were thoroughly investigated. Laboratory 
analyses were done. The conclusion was drawn that this was 
biogenic methane not related to oil and gas development. As I 
say, it is based on not just the work of our staff, but 
scientific papers and geological surveys dating back decades.
    Senator Merkley. So basically, if he had been running his 
water 30 years ago, he would have had exactly the same problem?
    Mr. Neslin. Yes, sir.
    Senator Merkley. Interesting. Thank you for addressing 
that.
    Dr. Volz, in your paper, you refer to a long list of 
chemicals that are coming out of the brine treatment facility: 
barium, strontium, bromide, benzene, glycol ether, chlorides 
and so forth. Now, was this facility, the brine treatment 
developed specifically to try to basically address the 
challenge of these flow-back fluids and clean them up?
    Mr. Volz. Senator, this is an older flow-back fluid 
treatment facility that has been in operation for about 25 
years, and up until about 5 years ago, only took care of 
conventional oil and gas fluids. Now, it is dealing with these 
Marcellus fluids.
    Senator Merkley. So the technology in that facility is 
completely inappropriate or ineffective in terms of the flow-
back fluids that are now being sent to it?
    Mr. Volz. That is right, sir.
    Senator Merkley. But if it was a newer facility, if you 
were looking at newer facility in Pennsylvania that had been 
designed specifically, we would find that all of these problems 
had been addressed?
    Mr. Volz. I am not sure of that, sir. I think there needs 
to be a very definitive review of all the processes that are 
used by treatment facilities, not only in the State of 
Pennsylvania, because wastewater from the State of Pennsylvania 
is actually being treated by these plants and sewage treatment 
plants in New York, New Jersey, Maryland, Ohio and West 
Virginia, as well as Pennsylvania.
    Senator Merkley. So I may have misinterpreted the pictures 
that were presented in your slides, but it looked like pipes 
coming out of the brine treatment facility into a creek and it 
is just dumping all of this ineffectively treated, highly 
contaminated dangerous stuff right into a creek on the surface 
in Pennsylvania. Is that actually what is happening?
    Mr. Volz. That is exactly what is happening, sir. There is 
very little treatment that is done at that plant except to 
remove some of the barium. It is precipitated with a sulfate 
solution and the barium is lower, still high, but much lower 
than in the flow-back water, but there are many other 
contaminants that are not treated by the facility at all.
    Senator Merkley. Why is Pennsylvania's Department allowing 
this highly contaminated fluid just to be put right into a 
creek?
    Mr. Volz. I don't know, sir.
    Senator Merkley. Thank you.
    Thank you, Mr. Chair.
    Senator Cardin. Senator Sessions is the Ranking Republican 
Member of the Water and Wildlife Subcommittee.
    Senator Sessions. Thank you. I didn't know who was next, 
but thank you.
    Mr. Ubinger, the Federal Government regulates discharges in 
the streams and Pennsylvania regulates it. Maybe you would like 
to answer the question or Mr. Volz's comment that Pennsylvania 
is permitting pollutant discharges against the health and 
safety of the people into the water?
    Mr. Ubinger. Senator, the Department of Environmental 
Protection in 2010----
    Senator Sessions. Are you familiar with this incident that 
he is talking about?
    Mr. Ubinger. Only from news reports about that facility. 
But what I was going to say is that the Department of 
Environmental Protection formulated a State-wide discharge 
limit for TDS and bromium and strontium that became effective 
either late last year or early this year. That standard is now 
in place. That standard, I think, would require newly issued 
permits to include that standard. It is a very stringent 500 
parts per million standard.
    I think one of the issues is that the permit cycle, which 
is typically 5 years, is running its course and thus far as far 
as I am aware, the Department has not asked anybody to 
accelerate the revision of those permits to put that standard 
in place.
    Now, the import of that standard is that a number of the 
responsibility leaders in the industry have begun to recycle 
their flow-back water by reinjecting it into new Marcellus well 
development. There are varying statistics, I am not sure which 
one would be accurate, but it is anywhere from 50 percent to 90 
percent of flow-back water, at least has some kind of 
recycling.
    Senator Sessions. Well, could I just ask this, if it 
violates the Clean Water Act and the Clean Water Act would 
apply to that discharge, would it not, the Federal Clean Water 
Act?
    Would it, yes or no?
    Mr. Ubinger. Yes, it applies.
    Senator Sessions. Somebody should investigate that and 
check on it and stop it if it is in violation, should it not?
    Yes or no?
    Mr. Ubinger. Yes, it should be.
    Senator Sessions. All right. So he has made a complaint. I 
hope Pennsylvania will get around to doing it, instead of 
stopping hydraulic fracturing around the country.
    Mr. Ubinger. Yes.
    Senator Sessions. We are in a serious financial problem in 
America. I am worried about our economy. The surging gas prices 
make a difference. Natural gas absolutely can be an alternative 
to the liquid fuel we import, the gasoline. It burns cleaner. 
It is all-American. It is a lot cheaper. Engines that use it 
will pay for themselves over a period of time. The President I 
think indicated recently that he was interested in expanding 
natural gas for vehicles. I just think it has tremendous 
potential.
    Too often, what we are seeing in Washington is the American 
people are suffering under high energy prices and all they hear 
from Washington is obstruction that makes those prices go up 
instead of down. People are worried about it.
    I just would have to say that we need clean, lower-cost 
energy and I believe that is what natural gas is.
    I would like to introduce, Mr. Chairman, into the record a 
statement from Dr. David Bolin, the deputy director of the 
State of Alabama's Oil and Gas Board. We have a large natural 
gas component and probably are the leading producer of coal-bed 
methane in the country, with thousands of wells. Over 20 or 30 
years, we have never had a problem, according to Dr. Bolin who 
supervises that.
    He went further. He took the media reports of leaking into 
groundwater allegations around the country. He called his 
colleagues around the country in those States and he has 
concluded that he has found no incidence in which groundwater 
has been polluted.
    Do you know him, Mr. Cloud, Dr. Bolin?
    Mr. Cloud. I do not.
    Senator Sessions. He has done this since 1982 when he 
joined the Board and has a master's degree and doctorate in 
water hydrology, not petroleum engineering. But I would just 
offer that for the record.
    Just to paraphrase Senator Cornyn or to followup on it, I 
think we have to watch that the regulations and the lawsuits 
don't become a death by a thousand cuts.
    Mr. Cloud, how many fracturing wells have been----
    Mr. Cloud. In Oklahoma, 100,000.
    Senator Sessions. One-hundred thousand. I think it is 5,000 
or 10,000 in Alabama. Nationwide, do you have any idea how 
many?
    Mr. Cloud. I believe the number is right at 1 million.
    Senator Sessions. It is just huge numbers, and we have just 
got to be careful that at this time when we desperately need 
cleaner natural gas, all-American natural gas, keeping our 
wealth at home, that we don't create a greater bureaucracy, 
duplicative regulations that make it more difficult for us to 
fight back against high energy costs.
    Thank you, Mr. Chairman, very much, and I am honored to be 
with you on this Subcommittee. You are a strong leader. You are 
a good experienced Member of Congress in the House and the 
Senate, and we are glad you are here.
    Senator Cardin. Thank you very much. I look forward to 
working with you, Senator Sessions.
    Senator Whitehouse.
    Senator Whitehouse. I wanted to ask Mr. Cloud and Mr. 
Neslin, when Deputy Administrator Perciasepe was here, he said 
that companies that used diesel in fracking and did not seek a 
permit under the Safe Drinking Water Act would be in violation 
of that Act. Are you aware in either of your States that diesel 
is used as an element of the fracking fluid?
    Mr. Neslin. Senator, as I mentioned in my testimony, we are 
currently investigating that issue. Our investigation is not 
complete yet.
    Senator Whitehouse. Well, let me give Mr. Cloud a chance to 
answer before I go to another question.
    Mr. Cloud. We are much the same, Senator. But I just want 
to emphasize that we do not allow frack fluids into the water 
treatment facilities. The frack fluids are only recycled, and 
when they are used up, they are put into injection wells. So it 
doesn't reach our water supply, any frack fluid.
    Senator Whitehouse. You have no concern that the deployment 
of the frack fluid in the wells could ever reach your water 
supply?
    Mr. Cloud. We always have that concern, but we are assured 
by our rules and practices that that doesn't happen.
    Senator Whitehouse. You keep enough of a buffer between?
    Mr. Cloud. Yes. Production casing is required to be 
cemented 200 feet above the producing zone, so it can't reach. 
We have field inspectors that witness that process when it is 
undergone.
    Senator Whitehouse. Why isn't it helpful to simply know 
what is being used as the frack fluid so that you don't have to 
investigate where diesel is being used because the company 
would have reported it already since it is being injected into 
public land, basically?
    Mr. Cloud. Well, as some have discussed today, there is an 
IOGCC, an Interstate Oil and Gas Compact Commission and 
Groundwater Protection Council initiative that is voluntary 
right now, where companies, and it is just in its infancy, but 
we have had a great response. It has been outlined a little bit 
today, where people divulge, or companies divulge the type of 
fluids that they are using.
    Senator Whitehouse. I am new to this issue, as you can 
imagine. We don't do a lot of this in Rhode Island. But I have 
seen the stories on the news about families whose water, for 
instance, is suddenly compromised. In time, it is associated 
with fracking having taken place nearby. Are there different 
geological differences that explain why this might be happening 
in other places? Or is there a less well-developed technique? 
Or do you think that this is actually not related to fracking 
and just a matter of coincidence?
    Mr. Neslin. Senator, if I may answer that on behalf of 
Colorado, we get dozens of allegations a year that water wells 
have been contaminated. We inspect and investigate all of those 
rigorously. In some cases, we have found that contamination has 
occurred and that it is attributable to oil and gas 
development, not hydraulic fracturing. Typically, it is a 
spill. It is a leak; might have been a failure of the cement 
job.
    In most instances or in many instances, we find that there 
has been no contamination; that the conditions that are being 
complained of are bacterial contamination, a problem with 
maintaining the water well. In other instances, as I mentioned 
in response to another question, there may be an impact from 
natural gas, but it is biogenic natural gas, swamp gas from 
decaying organic material, not attributable to oil and gas 
development.
    Mr. Cloud. Speaking for Oklahoma, we have been doing this 
process for a long time and there has not been one single 
documented instance of contamination to groundwater or drinking 
water as a result of this process.
    Senator Whitehouse. My time has expired.
    Thank you very much, Mr. Chairman.
    Thank you all, gentlemen, for your testimony.
    Senator Cardin. Thank you.
    Senator Boozman, thank you for your patience. You are 
recognized.
    Senator Boozman. Thank you, Mr. Chairman, very much.
    Again, I appreciate all of you being here. I think we have 
heard a lot about some of the potential problems with the 
process, but also some of the solutions. One of the things that 
Mr. Cloud and Mr. Neslin mentioned was the STRONGER review 
process. What I would like for you to do is very briefly, if 
you could, talk about the make-up of the review teams, the 
observers, the evaluations and followup procedures of STRONGER.
    Then also I believe that sometimes EPA is involved and DOE, 
you can talk a little bit about that.
    Mr. Neslin. If I might begin, STRONGER is a unique group in 
that it is comprised one-third of State regulators, one-third 
representatives of the industry, one-third of environmental 
representatives. Therefore, on a study, a STRONGER review, one-
third of the review team will be from each of those groups. 
One-third of the observers will be from each of those groups.
    It is also a collaborative process, so rather than a group 
that issues majority and minority positions, the participants 
work collaboratively to reach a common assessment and a common 
conclusion.
    Then it is a transparent process in which these reports are 
issued typically within 60 days after the review is concluded 
and are posted on the Website and publicly available.
    Mr. Cloud. Mr. Neslin did a good job of outlining the make-
up of the Board. One-third of the people in STRONGER that 
reviewed Oklahoma, it was a Texas regulatory Commissioner and 
then a noted critic of the domestic oil and gas industry, and 
the Independent Petroleum Association of America. But official 
observers to the process and contributors to that process were 
the Sierra Club and the EPA, and STRONGER is funded partially 
by EPA and DOE.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Cardin. Thank you.
    Let me thank all of our witnesses. I think this panel has 
been extremely helpful. There are still a lot of questions I 
think we need to deal with.
    As I was listening to the testimony, I was curious and I 
might be submitting some questions on this, as to what 
precautions are taken in regards to abandoned drilling sites to 
make sure that they are not only safely sealed, but the impact 
that the vacated cavity could have on geological activities. I 
am not, again, a geologist, but I would be interested as to 
whether we are at least mindful of these types of issues as we 
are drilling more and more wells with the amount of natural gas 
that we have.
    So I think there are questions that need to be answered. I 
do want to compliment the States of Colorado and Oklahoma who 
have taken aggressive action to protect their public health of 
their citizens. I think we need to learn from the best 
practices and we have seen some of that sort of catch on in 
other States.
    We do have a framework here between the Federal Government 
and the State government. Our committee will investigate to see 
whether that is strong enough under existing law or whether new 
laws are needed.
    I certainly appreciate the testimony from the Environmental 
Protection Agency and it looks like they are aggressively 
dealing with some of the open issues on public health.
    So we will be following up on the questions that have been 
asked. The record is open for additional questions that may be 
asked. If that is done, I would ask you all to respond in a 
timely way.
    With that, the joint hearing of the committee and 
subcommittee will be adjourned.
    Thank you all very much.
    [Whereupon, at 12:12 p.m. the committee and subcommittee 
were adjourned.]
    [Documents related to Marcellus Shale Development EPA 
Region III, have been archived and may be found in committee 
files.]
    [Additional statements submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] 


                                 <all>

</pre></body></html>
